<html>
<title> - ADDRESSING GLOBAL CLIMATE CHANGE: THE ROAD TO COPENHAGEN</title>
<body><pre>[Senate Hearing 111-82]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-82
 
                   ADDRESSING GLOBAL CLIMATE CHANGE:
                         THE ROAD TO COPENHAGEN

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                     ONE HUNDRED ELEVENTH CONGRESS



                             FIRST SESSION



                               __________

                 INSERT DATE HERE deg.JANUARY 28, 2009

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web:
              http://www.gpoaccess.gov/congress/index.html


                  U.S. GOVERNMENT PRINTING OFFICE
51-737                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                 JOHN F. KERRY, Massachusetts, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                      David McKean, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Gore, Hon. Albert A., Jr., former Vice President of the United 
  States, Nashville, TN..........................................     7

      Prepared statement.........................................    14


Kerry, Hon. John F., U.S. Senator From Massachusetts.............     1


Lugar, Hon. Richard G., U.S. Senator From Indiana................     4


              Additional Material Submitted for the Record

Responses to additional questions submitted for the record by 
  members of the committee.......................................    54


                                 (iii)

  


                   ADDRESSING GLOBAL CLIMATE CHANGE:
                         THE ROAD TO COPENHAGEN

                              ----------                              


                      WEDNESDAY, JANUARY 28, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Dodd, Feingold, Boxer, Menendez, 
Cardin, Casey, Kaufman, Gillibrand, Lugar, Corker, Risch, and 
Barrasso.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Good morning to all. We're delighted to welcome folks here. 
We're particularly grateful and happy today to be able to 
welcome back to this committee not only a visionary leader, but 
an old friend and Senate classmate of mine, former Vice 
President and Nobel Prizewinner, Al Gore. It's well known that 
Al and I have a certain political experience in common. 
[Laughter.]
    The Chairman. What is less well known is that we also 
teamed up on the first-ever Senate hearing on climate change 
for the Commerce Committee back in 1988. On a sweltering June 
day, some Senate staff opened up the windows and drove home the 
point with everyone sweating in their seats during Dr. James 
Hansen's historic and tragically prescient testimony. We're 
obviously not going to repeat that gesture today, but I speak 
for everyone on this committee when I tell you how much we 
appreciate you being here today, Mr. Vice President, 
particularly on a day in what passes down here as ``tough 
winter weather.'' To the naysayers and the deniers out there, 
let me make it clear that a little snow in Washington does 
nothing to diminish the reality of the crisis we face. This is 
the first substantive hearing of this committee in this 
Congress, and we're here because 10 months from now we will be 
negotiating the follow-up to the Kyoto Protocol, and the world 
has appropriately high expectations for the United States of 
America.
    Delegates will be meeting in March and again in June of 
this year to prepare negotiating language to be finalized at 
the conference of the parties in Copenhagen this December, and 
we need to join them in crafting a new global treaty. That 
means there is no time to waste. We must learn from the 
mistakes of Kyoto, and we must make Copenhagen a success.
    Regrettably, and despite committed efforts from Al Gore and 
many, many others in this country and across the globe, today 
we are on the brink of an acute crisis that is gathering 
momentum daily. The demand for action is more urgent than ever.
    It's no accident that we've asked Vice President Gore to 
testify at this first hearing of this committee. Climate change 
will be increasingly central to our foreign policy and our 
national security, and it will be a focal point of this 
committee's efforts, as well.
    We're here today for the same reason our top military 
leaders and intelligence officials have been sounding the 
alarms. They describe climate change as a threat multiplier, 
and they're warning that the cost of ignoring this issue will 
be more famine, more drought, more widespread pandemics, more 
natural disasters, more resource scarcity, and human 
displacement on a massive scale. In other words, our military 
leaders predict more of the very drivers that exacerbate 
conflict worldwide and create failed states, which, as we all 
know too well, present glaring targets of opportunity for the 
worst actors in our international system. That endangers all of 
us.
    Marine Corps Gen. Anthony Zinni, former commander of our 
forces in the Middle East, says that, ``Without action,'' and I 
quote, ``we will pay the price later in military terms, and 
that will involve human lives. There will be a human toll.'' 
More immediately, as the new administration sets a new tone 
with the global community, this issue will be an early test of 
our capability to exert thoughtful, forceful diplomatic and 
moral leadership on any future challenge that the world faces.
    We have willing partners in this endeavor. Mexico, South 
Africa, Brazil, Australia, the European Union, and others, have 
made meaningful domestic climate-change policy commitments in 
recent months. But, all of us are still falling far short of 
what the science tells us must be done.
    A partnership, led by the University of Pennsylvania, MIT, 
and the Heinz Center, recently aggregated the impact of the 
domestic policy proposals that every country currently talking 
about doing something has laid out--including President Obama's 
aggressive goal of 80-percent reductions by 2050. What they 
found was sobering. If every nation were to make good on its 
existing promises--if they were able to, and there's no 
indication yet that we are--we would still see atmospheric 
carbon-dioxide levels well above 600 parts per million, 50 
percent above where we are today. This translates into global 
temperatures at least 4 degrees Celsius above pre-industrial 
levels, and no one in the scientific community disputes that 
this would be catastrophic.
    That is why we need more than just a policy shift; we need 
a transformation in public-policy thinking to embrace the 
reality of what science is telling us. We must accept its 
implications and then act in accordance with the full scope and 
urgency of this problem.
    The science is screaming at us. Right now, the most 
critical trends and facts all point in the wrong direction. 
CO<INF>2</INF> emissions grew at a rate four times faster 
during the Bush administration than they did in the 1990s. Two 
years ago, the U.N.'s Intergovernmental Panel on Climate Change 
(IPCC), that shared the Nobel Prize with our witness today, 
issued a series of projections for global emissions based on 
likely energy- and land-use patterns. Today, our emissions have 
actually moved beyond all of the worst-case scenarios predicted 
by the models of the IPCC. Meanwhile, our oceans and forests, 
which act as natural repositories of CO<INF>2</INF>, are losing 
their ability to absorb carbon dioxide. This is a stronger 
climate-forcing signal than expected, arriving sooner than 
expected. Translated into simple terms, it means that all of 
the predictions of the scientists are coming back faster and to 
a greater degree than they had predicted.
    The result will be a major foreign-policy and national-
security challenge. In the Middle East, more than 6 percent of 
the world's population today fights over less than 2 percent of 
the world's renewable fresh water. As the region experiences a 
demographic explosion, the last thing we need is for climate 
change to shrink an already tight water supply. The Himalayan 
glaciers, which supply water to almost a billion people, could 
disappear completely by 2035. The British Government issued a 
report estimating that 200 million people may become 
permanently-displaced climate migrants, which is ten times the 
total number of refugees and internally displaced people in the 
world today. A recent study in Science predicts that as much as 
half the world's population could face serious food shortages 
by the end of this century.
    Perversely, Africa, the continent that has done the least 
to contribute to climate change, will be the worst affected. 
Quite simply, these conditions would result in a world we don't 
recognize and a ravaged planet in which all of us would be less 
secure.
    Vice President Gore and I recently returned from the 
climate-change negotiations in Poznan, Poland. There we met 
with leaders and dozens of delegations, ranging from the 
European community to China to the small island states. The 
Vice President will speak for himself, but one clear message 
emanated from every corner of the globe, from every meeting 
that I had; they said to us, ``This challenge cannot be solved 
without the active commitment and leadership of the United 
States.''
    We need to begin by putting in place a domestic cap-and-
trade program here at home. This will give us leverage to 
influence other countries' behavior. As we move towards 
Copenhagen, we must not repeat the mistakes of Kyoto. Going 
forward, the most important initiative that will determine the 
success of our climate diplomacy is how we give life to the 
words agreed to in 1992 in Rio, and reiterated in Bali and 
Poznan. Those words are ``shared, but differentiated, 
responsibilities'' among nations in solving this problem.
    In Kyoto, people stiff-armed that discussion; they were 
unwilling to have it. And in many ways, an earlier decision 
made in Berlin simply made it impossible to have that 
discussion. But the landscape has shifted over the past decade. 
Now, China is the world's largest emitter. Developing countries 
will account for three-quarters of the increase in global 
energy use over the next two decades.
    A global problem demands a global effort and a global 
solution. Today we are working toward a solution, with a role 
for developed and developing countries alike. It is absolutely 
vital that we achieve that in order to work to build a 
consensus here at home.
    Finally, some may argue that we cannot afford to address 
this issue in the midst of an economic crisis. Walking down to 
this hearing room, that was the first question put to the Vice 
President in the hall. Vice President Gore will speak to that 
in his testimony, and, I'm confident, in the questions. But the 
fact is that those who pose that question have it fundamentally 
wrong. This is a moment of enormous opportunity for new 
technology, new jobs, for the greening and transformation of 
our economy. We simply can't afford not to act, because it will 
be far more expensive and far more damaging to our economy in 
the long run not to.
    The question is not whether or not we pay for climate 
change. Listen to General Zinni: If there were a cost-free way 
forward, of course we'd take it. But, there isn't one, and we 
haven't.
    The real question is whether we pay now in a way that also 
helps to break our addiction to oil, strengthens our global 
system and global standing, and catapults us into the 21st-
century economy with millions of new jobs and a jolt of 
economic stimulus, or we can pay for it later, on a massive, 
unpredictable scale, in the currency of environmental 
devastation, military commitments, human misery, and reduced 
economic growth for decades to come. And while I am aware of 
the unique perils of this economic moment, I believe that the 
choice we can't afford is the latter one.
    This political season has celebrated the legacy of a new 
President and the legacy of a great President that he admires 
enormously, a President who called this country, not only ``the 
last best hope of Earth,'' but helped to make it so. After 
years of being the last place on Earth to get serious about our 
climate, this is our moment and an issue that offers us a real 
chance to live up to the full meaning of that phrase.
    Again, I thank Vice President Gore for joining us today. We 
look forward to hearing his insights and ideas about how this 
Nation can finally lead the world in crafting a solution to 
this enormous challenge.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, I thank the chairman for calling this 
hearing, for his remarkable opening statement, and I join him 
in a warm welcome to the Vice President. We welcome you back to 
the Senate.
    In President Obama's inaugural speech last week, he 
declared his intention to restore science to its rightful place 
in the operation of our Government. He's demonstrated his 
commitment to scientific excellence by appointing respected 
scientists, like Steven Chu to be Energy Secretary, John 
Holdren to be Assistant to the President for Science and 
Technology, Jane Lubchenco to be the Administrator of the 
National Oceanic and Atmosphere Administration. Now, this is an 
excellent start that hopefully will facilitate an emphasis on 
science and technology in addressing the threat of climate 
change and global energy demand.
    We should recognize that energy issues are at the core of 
most foreign policy, economic, and environmental issues today. 
Technological breakthroughs that expand clean energy supplies 
for billions of people worldwide will be necessary for 
sustained economic growth.
    In the absence of revolutionary changes in energy policy 
that are focused on these technological advancements we'll be 
risking multiple hazards for our country that could constrain 
our living standards, undermine our foreign policy goals, and 
leave us highly vulnerable to economic, political, and 
environmental disasters, with an almost existential impact.
    The United States should recognize the steps to address 
climate change involve economic opportunities and not just 
constraints. Thanks to new technology, we can control many 
greenhouse gases with proactive, pro growth solutions. Such 
technology represents an enormous opportunity for United States 
exports. But, we have to have the will to develop, test, and 
implement these technologies on a truly urgent basis. President 
Obama must demand that research projects related to battery 
technology, cellulosic ethanol, carbon capture and storage, 
solar and wind power, dozens of other technologies, receive the 
highest priority within his administration.
    I'm concerned that, even as we discuss ways to limit carbon 
emissions, too little is being done in the area of adaptation 
to climatic changes that have already started, and will 
continue, even with successful mitigation programs. We should 
not wait to implement adaptive policies out of fear that 
embracing such policies will be an admission of defeat or 
undermine support for mitigation measures.
    I'm especially concerned, and want to highlight in this 
hearing, that even as prevailing science is accepted as the 
essential reference point for the debate on climate change, too 
many governments and climate-change activists reject scientific 
advancements in the area of biotechnology that are necessary to 
address dire projections of declining food production due to 
climate change.
    The important report by Sir Nicolas Stern estimated that a 
2 degree Celsius increase in global temperature will cut 
agricultural yields in Africa by as much as 35 percent. This 
would be a catastrophic outcome that would lead to massive 
starvation, migration, and conflict on a continent already 
suffering from severe hunger.
    Genetically modified (GM) crops have the potential to 
improve agricultural production in the poorest regions of the 
world and to help poor farmers contend with increased drought, 
new pests, and other consequences of a changing climate. Yet, 
many developing countries, especially in Africa, worry that if 
they adopt GM crops, they will not be able to export to markets 
in Europe. And they also are deeply influenced by the direct 
advocacy of European government agencies and NGOs that are 
hostile to biotechnology.
    As Robert Paarlberg documents in his book ``Starved for 
Science,'' many European development agencies and NGOs campaign 
overtly against the use of GM crops in Africa and elsewhere, 
and they've done so even as global investment in African 
agriculture has declined significantly in recent decades. The 
ironic result has been that African nations have developed 
stifling European-inspired regulations on GM technology, even 
as they continue to struggle to ensure adequate food supplies, 
and they rightly worry about the coming impact of climate 
change on their agricultural productivity.
    The governments and people of Europe must understand that 
their unrelenting opposition to cutting-edge biotechnology has 
consequences far beyond their own countries. Opposition to safe 
GM technology contributes to hunger in Africa, in the short 
run, and virtually ensures that these poor countries will lack 
the tools, in the long run, to adapt their agriculture to 
changing climatic conditions.
    As a wealthy continent with a relatively secure food 
supply, Europe has the luxury to reject the benefits of GM 
technology without fear that its domestic populations will 
suffer intensifying hunger, but most African countries have no 
such luxury. And if Nicolas Stern's estimates are correct, 
Africa is looking at a very bleak future. We must not allow an 
aversion to modern agricultural technology to doom a part of 
the world's population to chronic hunger and poverty.
    Overcoming these agricultural deficiencies in Africa 
requires refocused attention on the increasing investments in 
better seeds and fertilizers, improved and sustainable farming 
techniques, and farmer access to small loans and extension 
support. But, even if donor countries expand conventional 
agricultural assistance, as I have advocated, African nations 
are likely to fall short of satisfying long-term food demands 
without sensible GM regulatory framework that facilitates the 
use of safe biotechnology.
    When committee staff has raised this issue during 
international climate change conferences, European negotiators 
have responded that GM technology cannot be on the agenda. But, 
the depression of global food production is potentially one of 
the most deadly and disruptive consequences of climate change. 
An international fund for climate change adaptation that does 
not include cutting-edge advances in biotechnology will be 
unnecessarily limited. If we are rejecting scientific methods 
for preventing a food catastrophe, without even allowing them 
to be on the agenda, it is difficult to project much optimism 
on other climate change proceedings. Yet, when it comes to 
these issues, we cannot succumb to exasperation or despair, and 
I'm heartened by President Obama's forthright inaugural pledge 
to work with poor nations to, ``make your farms flourish and 
let clean waters flow to nourish starved bodies and feed hungry 
minds.''.
    I'm also heartened by the excellence of research at United 
States universities and other research facilities that are 
using plant genetics to increase farm yields, adapt seed to 
challenging conditions, and decrease pesticide use.
    Addressing climate change will require extraordinary 
leadership by the Obama administration. The President's team 
must consistently promote good science to address both the 
causes and effects of climate change.
    And I appreciate the work that our committee has done under 
Chairman Biden on this issue. I look forward to the leadership 
of Chairman Kerry for continuing these examinations, and to our 
discussion, especially today, with Vice President Gore.
    I thank the Chair.
    The Chairman. Thank you, Senator Lugar, for a thoughtful 
opening comment as always. We appreciate it enormously.
    Vice President Gore, I know you'll join me in--if I can 
just take a moment, we want to welcome to the committee our 
newest member. We're delighted to have Senator Kirsten 
Gillibrand from New York as a new member of this committee. I 
happen to know Kirsten well from the campaign trail, and I know 
what a hard worker and thoughtful, smart person she is. I think 
she's a terrific addition to this committee, and we're 
delighted to have you there. If you're despairing sitting down 
there, Senator Dodd and I will tell you that it wasn't so long 
ago that both of us remember being way down there, and with 
just a little patience and a strong heartbeat----
    [Laughter.]
    The Chairman [continuing]. So, anyway--And, by the way, 
Senator Obama sat somewhere over here, and----
    [Laughter.]
    The Chairman [continuing]. Senator Biden, sat up here for a 
while. So, this committee is a great place to be.
    Vice President Gore, thank you. I cannot express enough the 
committee's admiration for the work you've done. Not a lot of 
people leave public life and go on to have quite the varied and 
extraordinary career that you've had. But most important, I 
know personally how much you travel, how many different people 
in different parts of the world you have shown your slide show 
to and educated, and brought along in this effort. We all owe 
you a great debt of gratitude, and this morning we look forward 
to you lifting it up to the next level of engagement. Thank you 
for being here.

STATEMENT OF HON. ALBERT A. GORE, JR., FORMER VICE PRESIDENT OF 
                THE UNITED STATES, NASHVILLE, TN

    Vice President Gore. Well, thank you very much, Mr. 
Chairman, Senator Lugar--am I supposed to press that? Been too 
long. [Laughter.]
    Thank you very much, Mr. Chairman, Senator Lugar, members 
of the committee. Indeed, I do join in welcoming your newest 
member, and also acknowledging my fellow Tennessean, Senator 
Corker, and the many friends that I have on this committee.
    It--and may I also acknowledge, in the audience, Theresa 
Hines Kerry, who is a long-time activist on the issue that 
we're discussing here today.
    It is truly a great honor and personal privilege to be 
invited to appear before this committee. Mr. Chairman, I want 
to compliment you on your long-time leadership on this issue, 
and thank you and Senator Lugar for the prominence you're 
bringing to this issue by making it the subject of the very 
first substantive hearing of the Senate Foreign Relations 
Committee in 2009.
    We are here today, of course, to talk about how we as 
Americans, and how the United States of America as part of the 
global community, should address the dangerous and growing 
threat of the climate crisis.
    We have arrived at a moment of decision. Our home--Earth--
is in danger. What is at risk of being destroyed is not the 
planet itself, of course, but the conditions that have made it 
hospitable for human beings. Moreover, we must face up to this 
urgent and unprecedented threat to the existence of our 
civilization at a time when our Nation must simultaneously 
solve two other worsening crises. Our economy is in its deepest 
recession since the 1930s, and our national security is 
endangered by a vicious terrorist network and the complex 
challenge of ending the war in Iraq honorably while winning the 
military and political struggle in Afghanistan.
    As we search for solutions to all three of these 
challenges, it is becoming ever clearer that they are linked by 
a common thread: Our dangerous over-reliance on carbon-based 
fuels. If you grab a hold of that thread and pull it, all three 
of these crises yield a solution--and you hold in your hand the 
answer--and that is a shift from carbon-based fuels to 
renewable energy.
    As long as we continue to send hundreds of billions of 
dollars for foreign oil, year after year, to the most dangerous 
and unstable regions of the world, our national security will 
continue to be at risk. As long as we continue to allow our 
economy to remain shackled to the OPEC roller-coaster of rising 
and falling oil prices, our jobs and our way of life will 
remain at risk. Moreover, as the demand for oil worldwide grows 
rapidly over the longer term, even as the rate of new 
discoveries is falling, it is increasingly obvious that this 
roller coaster is headed for a crash, and we're in the front 
car.
    Most important, as long as we continue to depend on dirty 
fossil fuels, like coal and oil, to meet our energy needs and 
dump 70 million tons of global warming pollution into the thin 
shell of atmosphere surrounding our planet, we move closer and 
closer to several dangerous tipping points which scientists 
have repeatedly warned--again, just yesterday--threaten to make 
it impossible for us to avoid irretrievable destruction of the 
conditions that make human civilization possible on this 
planet.
    We're borrowing money from China to buy oil from the 
Persian Gulf, and burning it in ways that destroy the planet. 
Every bit of that has to change.
    For years, our efforts to address the growing climate 
crisis have been undermined by the idea that we must choose 
between our planet and our way of life, between our moral duty 
and our economic well-being. These are false choices. In fact, 
the solutions to the climate crisis are the very same solutions 
that will address our economic and national security crises, as 
well.
    In order to repower our economy, restore American economic 
and moral leadership in the world, and regain control of our 
own destiny, we must take bold action now. The first step is 
already before us. I urge this Congress to quickly pass the 
entirety of President Obama's recovery package. The plan's 
unprecedented and critical investments in four key areas--
energy efficiency, renewables, a unified national energy smart 
grid, and the move to clean cars--represent an important down 
payment and are long overdue. These crucial investments will 
create millions of new jobs and hasten our economic recovery, 
while strengthening our national security and beginning to 
solve the climate crisis.
    Quickly building our capacity to generate clean electricity 
will lay the groundwork for the next major step needed: Placing 
a price on carbon. If Congress acts right away to pass 
President Obama's recovery package, and then takes decisive 
action this year to institute a cap-and-trade system for 
CO<INF>2</INF> emissions, as many of our States and many other 
countries have already done, and as many of the leading Fortune 
500 corporations in America are pleading with the Congress to 
do so they'll have predictability and the basis to become more 
competitive in world commerce, then the United States will 
regain its credibility and enter the Copenhagen treaty talks 
with a renewed authority to lead the world in shaping a fair 
and effective treaty. And this treaty must be negotiated this 
year. Not next year. This year.
    A fair, effective, and balanced treaty will put in place 
the global architecture that will place the world, at long last 
and in the nick of time, on a path toward solving the climate 
crisis and securing the future of human civilization. I am 
hopeful that this can be achieved.
    Let me outline for you the basis for the hope and optimism 
that I feel.
    The Obama administration has already signaled a strong 
willingness to regain U.S. leadership on the global stage in 
the treaty talks, reversing years of inaction. This is critical 
to success in Copenhagen, and is clearly a top priority of the 
administration.
    Developing countries, as you said, Mr. Chairman, that were 
once reluctant to join in the first phases of a global response 
to the climate crisis, have, themselves, now become leaders in 
demanding action and in taking bold steps on their own 
initiatives.
    Brazil has proposed a very impressive new plan to halt the 
destructive deforestation in that nation. Indonesia has emerged 
as a new constructive force in the talks. And China's leaders 
have gained a strong understanding of the need for action, and 
have already begun important new initiatives. Heads of state 
from around the world have begun to personally engage on this 
issue, and forward-thinking corporate leaders have made this a 
top priority.
    More and more Americans are paying attention to the new 
evidence and fresh warnings from scientists. There is a much 
broader consensus on the need for action than there was when 
President George H.W. Bush negotiated, and the Senate ratified, 
the Framework Convention on Climate Change in 1992, and there 
is much stronger support for action than when we completed the 
Kyoto Protocol in 1997.
    The elements that I believe are key to a successful 
agreement in Copenhagen include:


          First, strong targets and timetables from 
        industrialized countries and differentiated, but 
        binding, commitments from developing bystander that put 
        the entire world under a system with one commitment: to 
        reduce missions of carbon dioxide and other global 
        warming pollutants that are the cause of the climate 
        crisis.

          Second, the inclusion of deforestation, which, alone, 
        accounts for more than 20 percent of the emissions that 
        cause global warming.

          Third, the addition of so-called carbon sinks, 
        including those from soils, principally from farmlands 
        and grazing lands, with appropriate methodologies and 
        accounting. Farmers, such as Senator Lugar, and 
        ranchers in the U.S. and around the world need to know 
        that they can be a part of the solution.

          Fourth, the assurance that developing countries will 
        have access to mechanisms and resources that will help 
        them adapt to the worst impacts of the climate crisis, 
        and technologies to solve the problem.

          And finally, a strong compliance and verification 
        regime.


    The road to Copenhagen is not easy, but we have traversed 
this ground before. We negotiated the Montreal Protocol, more 
than 20 years ago, to protect the ozone layer, and then 
strengthened it to the point where we've now banned most of the 
major substances that created the ozone hole over Antarctica, 
and that is now healing. And we did it with bipartisan support. 
President Ronald Reagan and Speaker of the House Tip O'Neill 
joined hands to lead the way.
    With your permission, Mr. Chairman, and with the permission 
of the committee, I would like to discuss in more detail some 
of the reasons why I believe this is so serious, and, with your 
permission, show just a few new pictures that illustrate the 
basics of the problem.\1\
---------------------------------------------------------------------------
    \1\ The pictures and video shown at this point in the hearing could 
not be reproduced due to technical limitations.
---------------------------------------------------------------------------
    The Chairman. Yes, we'd be delighted. Thank you.
    Vice President Gore. I know it's hard to see----
    The Chairman. Do you need the lights to go down a little 
bit?
    Vice President Gore. That would be great, if you could put 
the lights down. And I know it's hard to see on these monitors, 
but----
    To start with the broadest overview, the scientific 
community--and, most recently, the European Space Agency--has 
pointed out that Earth and Venus are exactly the same size, 
with exactly the same amount of carbon. No more than 400 
kilometers difference in circumference, and the carbon quantity 
is identical. The difference is that on Earth most of the 
carbon has been sequestered in the soil, pulled out of the 
atmosphere by the miracle of life and by the unique geology on 
Earth, while most of the carbon on Venus is still in the 
atmosphere.
    The difference is that the average annual temperature on 
Earth is 59 degrees, and on Venus it's 855 degrees, and it 
rains sulfuric acid. Not the kind of weather forecast you'd 
like to wake up to. And it's not because Venus is closer to the 
sun it's three times hotter than Mercury, which is right next 
to the sun. It is, in fact, the CO<INF>2</INF>. And this is a 
stark difference that illustrates why it's a problem to follow 
a global strategy of pulling as much carbon out of the Earth as 
we possibly can, as quickly as possible, and burning it in ways 
that leave it in the atmosphere.
    The basics of this are well known to everyone. As we 
thicken the layer of greenhouse gases, more of the outgoing 
heat is trapped, and the temperature increases. In the last 5 
years, a very short period of time, the concentrations of 
tropospheric CO<INF>2</INF> have increased measurably. It is 
now at a level of slightly more than 386 parts per million, 
comparing to roughly 280 parts per million at the beginning of 
the Industrial Revolution.
    The 10 hottest years in the recorded record--and this is an 
atmospheric record that only goes back 160 years--but, the 10 
hottest years have been in the last 11 years. If we stopped 
global greenhouse gas emissions today, according to some 
scientists--and you referred to this, Mr. Chairman--we would 
see an increase in temperatures that many scientists believe 
would be extremely challenging for civilization. If we 
continued at today's levels, some scientists have said it can 
be an increase of up to 11 degrees Fahrenheit. This would bring 
a screeching halt to human civilization and threaten the fabric 
of life everywhere on the Earth. And this is within this 
century if we don't change.
    Let me briefly discuss a couple of important early 
indicators:
    The North Polar Ice Cap, for most of the last 3 million 
years, has been roughly the size of the lower 48 States. In 
1980, just 28 years ago, it appeared this way in the 
summertime; last year, it had shrunk to this size. To put this 
in perspective, the early part of that graph to the left, up to 
the 1970s, the fluctuation stayed within a fairly predictable 
range; but, in the 1970s, the decline began, and a new record 
was set in 2005.
    To illustrate how much of the North Polar Ice Cap that 
represents--again, I said it's roughly the size of the lower 48 
States; the scientists say if you take out an area roughly the 
size of Arizona, it's precise--but, the amount that melted in 
2005 is equal to every State east of the Mississippi River.
    In 2007, something fairly dramatic happened that startled 
the scientists. In 1 year, the drop was really quite 
pronounced, as you can see from this slide. And again, to put 
that in perspective, the additional melting represented another 
whole row and a half of States west of the Mississippi River.
    The next slide I'm going to show you illustrates that, in 
2008, just--when the measurements were taken a few years ago--
it shrank even further. But, Mr. Chairman, it was not a change 
in the surface area, it was a change in the thickness. And 
please bear with me on this slide; I don't normally include 
this, and it's a little complex, but I want you to see it. This 
is 30 years in less than 30 seconds, and what you will see is 
like the beating of a heart. In winter, the North Polar Ice Cap 
expands, and you'll see a dark blue margin, the annual ice 
that's only a foot thick. But, keep your eye on the multiyear 
ice, what they call the ``permanent ice.'' It's colored in red. 
And it has been spilling out along the coast of Greenland. And 
here, you'll see 30 years very quickly. The permanent ice--you 
see it expanding year by year, like a beating heart, and the 
permanent ice looks almost like blood spilling out of a body 
along the eastern coast of Greenland. This, up to the mid-
1990s, and it's continuing.
    What is left now, when last measured, a few months ago, is 
really a very pale shadow of what it used to be. Professor 
Wieslaw Maslowski, at the Naval Postgraduate School in 
Monterey, has calculated that there is an 80-percent chance 
that the entire North Polar Ice Cap will be completely and 
totally gone, in summer months, in less than 5 years. Again, 28 
years ago it looked like this, and now it looks like this.
    Now, the reason this is important is not because it affects 
sea level. As you know, the North Polar Ice Cap is a floating 
ice cap. Its mass has already been displaced; so when it melts, 
it does not change sea level, unlike Greenland and Antarctica. 
But, what it does do is reflect 90 percent of the incoming 
solar energy, as if it were a giant mirror. And as it 
disappears, the Arctic Ocean begins to absorb enormous 
quantities of heat, and that causes a series of dramatic 
changes.
    I just want to talk about two of them. Not the polar bears. 
We've heard plenty about them; they are an early indicator. 
But, I want to focus your attention on the frozen ground around 
the Arctic Ocean. It contains a lot of carbon. The current 
amount, in the atmosphere, of CO<INF>2</INF> is roughly 730 
gigatons, or trillion tons. But, in that frozen soil around the 
Arctic, there is roughly an equal quantity. If it thaws and is 
allowed to release the methane into the atmosphere, then the 
amount in the atmosphere doubles over a relatively short period 
of time. And the microbes turn the methane--turn the carbon 
into methane as it thaws, and methane is even more powerful 
than CO<INF>2</INF>, but, over 12 to 15 years, it breaks down 
into CO<INF>2</INF>, so it's very similar.
    Now, here is--here are two short images from the University 
of Fairbanks in Alaska. Dr. Katey Walter went out to a shallow 
lake in Alaska and documented methane bubbling up from the 
bottom of this lake. And indeed, the scientific community 
worldwide is very concerned about the amount of methane 
increases that appear to be already starting there. Dr. Wheeler 
and her team went out last winter to another site.
    [Video presentation.]
    Vice President Gore. She's OK. The question is----
    [Laughter.]
    Vice President Gore [continuing]. The question is, Are we?
    When the heat builds up in the Arctic Ocean, it puts 
pressure on Greenland. And Greenland has land-based ice, which, 
if it melted, has the potential to raise sea level worldwide by 
20 feet. The melting pattern for the seasonal ice in--the 
seasonal melting pattern in Greenland has steadily increased, 
and it is now accelerating.
    This famous picture from the University of Manchester, you 
see the scientists at the top show one of the new larger 
moulins, as they call them, draining water down through the ice 
pack.
    Now, when sea level increases, it erodes coastlines and 
threatens to displace people who live in low-lying areas. 
That's why this home in Alaska fell into the sea, and why this 
home in Canada fell into the sea. The nation of the Maldives 
has just put a new budget in its budget to relocate the entire 
country. They're searching to buy territory to move 100 percent 
of their population.
    You mentioned the issue of climate refugees, Mr. Chairman. 
The authorities--the scientists indicate that, for each 1 meter 
of sea-level rise, there are roughly 100 million climate 
refugees. This committee, with its distinguished tradition and 
expertise, knows full well the destabilizing and tragic impacts 
of very large flows of refugees.
    Now, Greenland is roughly the same size as West Antarctica. 
West Antarctica would also lead to a sea-level rise of roughly 
20 feet if it melted. Until recently, many scientists had hoped 
that the continent of Antarctica would remain relatively stable 
over a long period of time. But, a study, just in the past 2 
weeks, showed that the melting is now accelerating in 
Antarctica, and confirmed that it is warming, along with the 
rest of the world.
    In 2005, the areas of snowmelt in West Antarctica roughly 
equaled, in aggregate, the size of the State of California. The 
recent study showing the overall warming of Antarctica focused 
on West Antarctica, which is pinned up on top of undersea 
islands, which makes it different from East Antarctica. The 
ocean comes in under that ice. Its mass is resting on land, so 
if it melts, it raises sea level; but, the warming ocean is now 
beginning to degrade the structure of the West Antarctic Ice 
Shelf.
    You have, in the audience, Bob Corell, one of the leading 
polar scientific researchers, who's nodding as I present this, 
and giving me a little confidence to go forward. [Laughter.]
    Now, just a brief word on glaciers, and only one aspect of 
the melting of glaciers.
    This glacier in South America is the source of water for 
this city. The flows of water are increasing. But, when the 
glaciers disappear, the source of the water will also 
disappear.
    West of the Andes, west of the Rockies--in fact, our own 
water resources are threatened by the diminishing snowpack in 
our mountains; and in every mountain range in the world, this 
is happening. But, as you said, Mr. Chairman, most importantly, 
in the Himalayas. The great rivers of Asia, the Indus and the 
Ganges and the Brahmaputra and the Salween or the Irawadi, the 
Mekong, the Yangtze, and the Yellow, all originate in the same 
ice field, and 40 percent of the population on Earth gets 50 
percent or more of its drinking water from this melting 
pattern.
    This is a recent satellite picture of one small ridge in 
the Himalayas, and you will see, at the top of this image, what 
used to be glaciers and are now lakes. In this region of the 
world, they worry about the sudden bursting of these lakes 
flooding the villages down the slope, but the larger and longer 
term concern is what happens when that source of water 
disappears in Asia.
    I would say to my fellow Tennessean Senator Corker, and to 
you, Senator Isakson, you are on either side of the Georgia/
Tennessee border, and you know full well--in fact, there was a 
little conflict between our two States when, for some 
inexplicable reason, Georgia wanted to change the line down 
there to capture one of our reservoirs. But--we'll take that up 
later. [Laughter.]
    But, the droughts in the Southeast and in the West are 
getting longer and deeper, and are related to global warming.
    The tree death, particularly in the West, is becoming a 
very serious concern. And drier vegetable and vulnerability to 
beetles that are no longer held back by the frost are causing 
dramatic changes.
    The fires--again, Senator Isakson, in Georgia, and also in 
Florida, the largest fires in the history of either States--
repeatedly in California, hundreds of thousands of people have 
had to be evacuated. And these are not following a normal 
pattern, as Senator Boxer knows full well. The increase in 
fires on every continent has been quite dramatic. This, from 
last fall, a satellite image of the fires from January to 
September. And the Government of Greece almost was brought down 
by the unprecedented fires there.
    I won't spend time on hurricanes, except to say, this fall 
we saw more destruction, and we almost didn't pay close 
attention, when 1 million people were, once again, evacuated 
from New Orleans. Is that the new normal?
    This--and I only have two more--this is a chart from the 
Center for Research on the Epidemiology of Disasters. And you 
see, on the left-hand slide, worldwide major weather-related 
disasters during the first part of the century. What's been 
going on more recently is quite a different pattern.
    In the last 30 years, there have been four times more 
annual weather-related disasters than in the previous 75, and 
the trend is continuing. The reinsurance companies are quite 
disturbed, as you would expect, by this. But, if you put this 
in perspective, and you look at the predictions, that floods, 
droughts, hurricane damage, fires, and other climate-related 
disasters will increase even more dramatically the longer we 
delay action on this, the cost is quite serious.
    This is the final image, Mr. Chairman. It's from a new 
study that shows the impact on the global ocean. I mentioned 
we're putting 70 million tons of global warming pollution into 
the atmosphere each day. Twenty-five million tons are going 
into the oceans each day. The oceans are growing more acidic, 
and the entire ecology of the world ocean is being disrupted. 
Scientists are still grappling to understand what this--what 
all of the phenomena related to this result might be, but this 
was published in Nature magazine in November.
    The legend shows that the dark pink represents severe 
oxygen depletion in the oceans. Look at the size of the area in 
the eastern Pacific off of the coast of California, Central 
America, and northern South America, and look at the Bay of 
Bengal and the Arabian Sea on either side of the Indian 
subcontinent. This is a catastrophe in the making. Even if it 
did not produce warming of the world, the killing of the oceans 
would be yet another reason to address this crisis.
    Thank you for giving me the chance to show a few images, 
and I am eager and, again, honored to respond to any questions 
or comments that you and Senator Lugar and members of the 
committee might have.
    [The prepared statement of Vice President Gore follows:]

       Prepared Statement of Hon. Al Gore, Former Vice President 
                  of the United States, Nashville, TN

    We are here today to talk about how we as Americans and how the 
United States of America as part of the global community should address 
the dangerous and growing threat of the climate crisis.
    We have arrived at a moment of decision. Our home--Earth--is in 
grave danger. What is at risk of being destroyed is not the planet 
itself, of course, but the conditions that have made it hospitable for 
human beings.
    Moreover, we must face up to this urgent and unprecedented threat 
to the existence of our civilization at a time when our country must 
simultaneously solve two other worsening crises. Our economy is in its 
deepest recession since the 1930s. And our national security is 
endangered by a vicious terrorist network and the complex challenge of 
ending the war in Iraq honorably while winning the military and 
political struggle in Afghanistan.
    As we search for solutions to all three of these challenges, it is 
becoming clearer that they are linked by a common thread--our dangerous 
over reliance on carbon-based fuels.
    As long as we continue to send hundreds of billions of dollars for 
foreign oil--year after year--to the most dangerous and unstable 
regions of the world, our national security will continue to be at 
risk.
    As long as we continue to allow our economy to remain shackled to 
the OPEC roller coaster of rising and falling oil prices, our jobs and 
our way of life will remain at risk. Moreover, as the demand for oil 
worldwide grows rapidly over the longer term, even as the rate of new 
discoveries is falling, it is increasingly obvious that the roller 
coaster is headed for a crash. And we're in the front car.
    Most importantly, as long as we continue to depend on dirty fossil 
fuels like coal and oil to meet our energy needs, and dump 70 million 
tons of global warming pollution into the thin shell of atmosphere 
surrounding our planet, we move closer and closer to several dangerous 
tipping points which scientists have repeatedly warned--again just 
yesterday--will threaten to make it impossible for us to avoid 
irretrievable destruction of the conditions that make human 
civilization possible on this planet.
    We're borrowing money from China to buy oil from the Persian Gulf 
to burn it in ways that destroy the planet. Every bit of that's got to 
change.
    For years our efforts to address the growing climate crisis have 
been undermined by the idea that we must choose between our planet and 
our way of life; between our moral duty and our economic well-being. 
These are false choices. In fact, the solutions to the climate crisis 
are the very same solutions that will address our economic and national 
security crises as well.
    In order to repower our economy, restore American economic and 
moral leadership in the world and regain control of our destiny, we 
must take bold action now.
    The first step is already before us. I urge this Congress to 
quickly pass the entirety of President Obama's Recovery package. The 
plan's unprecedented and critical investments in four key areas--energy 
efficiency, renewables, a unified national energy grid, and the move to 
clean cars--represent an important down payment and are long overdue. 
These crucial investments will create millions of new jobs and hasten 
our economic recovery--while strengthening our national security and 
beginning to solve the climate crisis.
    Quickly building our capacity to generate clean electricity will 
lay the groundwork for the next major step needed: Placing a price on 
carbon. If Congress acts right away to pass President Obama's Recovery 
package and then takes decisive action this year to institute a cap-
and-trade system for CO<INF>2</INF> emissions--as many of our States 
and many other countries have already done--the United States will 
regain its credibility and enter the Copenhagen treaty talks with a 
renewed authority to lead the world in shaping a fair and effective 
treaty. And this treaty must be negotiated this year.
    Not next year. This year.
    A fair, effective, and balanced treaty will put in place the global 
architecture that will place the world--at long last and in the nick of 
time--on a path toward solving the climate crisis and securing the 
future of human civilization.
    I am hopeful that this can be achieved. Let me outline for you the 
basis for the hope and optimism that I feel.
    The Obama administration has already signaled a strong willingness 
to regain U.S. leadership on the global stage in the treaty talks, 
reversing years of inaction. This is critical to success in Copenhagen 
and is clearly a top priority of the administration.
    Developing countries that were once reluctant to join in the first 
phases of a global response to the climate crisis have themselves now 
become leaders in demanding action and in taking bold steps on their 
own initiatives. Brazil has proposed an impressive new plan to halt the 
destructive deforestation in that nation. Indonesia has emerged as a 
new constructive force in the talks. And China's leaders have gained a 
strong understanding of the need for action and have already begun 
important new initiatives.
    Heads of state from around the world have begun to personally 
engage on this issue and forward-thinking corporate leaders have made 
this a top priority.
    More and more Americans are paying attention to the new evidence 
and fresh warnings from scientists. There is a much broader consensus 
on the need for action than there was when President George H.W. Bush 
negotiated--and the Senate ratified--the Framework Convention on 
Climate Change in 1992 and much stronger support for action than when 
we completed the Kyoto Protocol in 1997.
    The elements that I believe are key to a successful agreement in 
Copenhagen include:

  <bullet> Strong targets and timetables from industrialized countries 
        and differentiated but binding commitments from developing 
        countries that put the entire world under a system with one 
        commitment: To reduce emissions of carbon dioxide and other 
        global warming pollutants that cause the climate crisis;
  <bullet> The inclusion of deforestation, which alone accounts for 20 
        percent of the emissions that cause global warming;
  <bullet> The addition of sinks including those from soils, 
        principally from farmlands and grazing lands with appropriate 
        methodologies and accounting. Farmers and ranchers in the U.S. 
        and around the world need to know that they can be part of the 
        solution;
  <bullet> The assurance that developing countries will have access to 
        mechanisms and resources that will help them adapt to the worst 
        impacts of the climate crisis and technologies to solve the 
        problem; and
  <bullet> A strong compliance and verification regime.

    The road to Copenhagen is not easy, but we have traversed this 
ground before. We have negotiated the Montreal Protocol, a treaty to 
protect the ozone layer, and strengthened it to the point where we have 
banned most of the major substances that create the ozone hole over 
Antarctica. And we did it with bipartisan support. President Ronald 
Reagan and Speaker of the House Tip O'Neill joined hands to lead the 
way.
    Let me now briefly discuss in more detail why we must do all of 
this within the next year, and with your permission, Mr. Chairman, I 
would like to show a few new pictures that illustrate the unprecedented 
need for bold and speedy action this year.
    Thank you Mr. Chairman. I am eager to respond to any questions that 
you and the members of the committee have.

    The Chairman. Well, Mr. Vice President, that's dramatic and 
frankly a remarkable testimony. I'm going to order the full 
printing, if we can, of this testimony and the following 
questions, and I'm going to distribute it to every single one 
of our members in the Senate. I will find some way, if 
possible--maybe you could cooperate with us; I know you can't 
get the motion in the slides--to get some of those accompanying 
slides as a separate entry. I think Bob Corell is nodding; we 
can try and get some of those from him. That would be really 
helpful.
    If ever there was an underscoring of the urgency, I think 
you've given it to us in a very important, significant way. And 
this is a significant hearing for that reason.
    One of the things that struck me as you were talking about 
methane being released and instant doubling, is the fact that 
many people are not aware that CO<INF>2</INF> in the atmosphere 
has a half-life around 80 to 100 years if I'm correct.
    Let me ask you, if I can, sort of, to--one of the things 
that just struck me, as you were talking about the methane 
being released and the instant doubling, is the fact, that many 
people are not aware of, that CO<INF>2</INF> in the atmosphere 
has a half-life of something like 80 to 100 years, if I'm 
correct.
    Vice President Gore. I think the scientists will say that, 
100 years from now, 50 percent of it will fall out of the 
atmosphere; however, 1,000 years from now, 20 percent of what 
we put up this year will still be there. So, it's, as one would 
expect, a more complex picture. But, basically, if we can get 
half of it out over 100 years, that's a hopeful sign. If a lot 
of it remains, after 1,000 years, it's a sobering warning that 
the quicker we reduce, the better.
    The Chairman. But that which is already up there 
continues--absent of it being somehow extracted--to do the 
damage it's doing now.
    Vice President Gore. Yes. Yes.
    The Chairman. Which means that if the temperature has 
already increased about .8 degrees Centigrade, with the amounts 
that we're adding to what's already up there and the span of 
time we're now looking at for reductions we will automatically 
see, without anything else interfering, an increase in 
temperature up to 1.6/1.7 degrees Centigrade.
    Vice President Gore. Roughly .7/.8 degrees Centigrade has 
already occurred. Another .7/.8 is already stored in the oceans 
and will be re-released. But, the continuing potential for the 
CO<INF>2</INF> that remains in the atmosphere, as you've 
pointed out, will continue to produce further increases, yes.
    The Chairman. Our cushion between the tipping point that 
scientists have warned us of is 2 degrees Centigrade. And as 
you said, we have to achieve 350 parts per million, which is 
the goal that most scientists now believe will result in 
stability, is that correct?
    Vice President Gore. That is the goal that I support, and 
that is my reading of the best--what I believe is the best 
science. I think that an accurate picture of the science is 
that leading researchers, like Professor Jim Hansen--like Dr. 
Jim Hansen, at NASA, have now begun to coalesce around the very 
strong feeling that 350 is the appropriate goal.
    After years of debate within a--an international political 
framework, other scientists have despaired about the ability of 
the political system to do what the science mandates, and have 
coalesced around 450; some, even 550. But, the more the 
evidence comes in, the more it becomes increasingly apparent 
that 350 is the appropriate goal.
    If we're at 386 now, and the entire North Polar Ice Cap is 
completely melting in 5 years, and both Greenland and West 
Antarctica are now clearly at risk, obviously we need to be 
below the level that we're at now.
    The Chairman. Now, to get there--that is sort of the key 
question. We still have naysayers here, though I think there 
are less than there used to be. But obviously the politics of 
getting through this are complicated, as we all understand. I 
know you've been giving a lot of thought to this, and you've 
had a lot of meetings--one of them recently up at Harvard. 
Share with us, if you would, what do you say to somebody from a 
coal state? There was an article in the New York Times 
yesterday about a group within the caucus, even in the 
Democratic Party, who are reluctant to move rapidly, because 
they have a coal industry or interests in their states, and 
they think they're going to lose competitiveness or lose jobs. 
What's the direct answer to them about the options here and the 
opportunities here?
    Vice President Gore. Well, I think it's quite responsible 
to support robust research into whether or not it might, in the 
future, become possible to safely capture and sequester 
CO<INF>2</INF> from coal plants. But, we should not delude 
ourselves about the likelihood that that's going to occur in 
the near term, or even the mid-term. It is extremely expensive. 
There is not a single large-scale demonstration plant anywhere 
in the United States. The one plant was canceled by the Bush-
Cheney administration.
    And the research is one thing. But, we must avoid becoming 
vulnerable to the illusion that this is near at hand. It is 
not. And, as a result, I believe that we must not have any more 
conventional dirty coal plants that do not capture and 
sequester CO<INF>2</INF>.
    I proposed, as a member of this body many years ago, a full 
employment alternative for any coal miners and workers in the 
coal industry that are displaced by the need to protect the 
environment of this planet. Just to keep on doing this 
incredible damage and harm, in the name of their jobs, when we 
can much more effectively create even better jobs for them, 
that, I believe, must be the response, even as we aggressively 
research the possibility that it might be possible to capture 
and sequester carbon.
    The Chairman. That's a very direct and honest answer, and I 
appreciate it.
    You're currently doing a lot of work with technologies and 
looking at the energy-sector transformation. Share with us, if 
you would, the immediate vision that you see in this 
transformative process as we move to this new economy and new 
base of power.
    Vice President Gore. Well, Mr. Chairman, the Energy 
Information----
    The Chairman. Let me just share with you, the reason--you 
know this full well----
    Vice President Gore. Yeah.
    The Chairman [continuing]. But we have a vote going on, 
which is why members are getting up and moving out. They're 
coming back. We'll try to rotate through and keep the hearing 
going. Thanks.
    Vice President Gore. Well, thank you very much. Indeed, I 
am familiar with this.
    The Energy Information Administration, in its report from 
2007 on the electric power industry, reported that, for the 
first time, renewable energy sources represented, by far, the 
largest new increment of electricity generation in the United 
States of America. We are beginning to see this shift take 
place already.
    Wind power is now mature and fully competitive. It can 
accelerate its role, with the appropriate tax credits and 
grants, to make them usable. And a technology called 
``concentrating solar thermal'' is now becoming very 
competitive. Many plants are under construction in the 
Southwest. And this, of course, uses mirrors to concentrate the 
solar energy to boil water, just as a nuclear plant or a coal-
fired plant does, to drive steam turbines and generate 
electricity.
    Scientific American pointed out that, if we took an area of 
the Southwestern desert, 100 miles on a side, that would be 
enough, in and of itself, to provide 100 percent of all the 
electricity needs for the United States of America in a full 
year. And, interestingly, this technology matches the peak load 
exactly, throughout the day, to the peak-load use. So, 
concentrating solar thermal is a very important new source, 
along with wind. And most scientists and engineers expect that 
the new advances on photovoltaic energy--of course, the kind 
that directly translate photons into an electrical current--
will intersect with concentrating solar thermal midway through 
this decade. And widely distributed uses of photovoltaics and 
small wind will also play an increasing role.
    In all of this, efficiency and conservation must be the No. 
1 priority. It gives us the quickest and most cost-effective 
new sources of energy; indeed, a lot of it is not only cheap, 
it actually makes money. And giving the right incentives to use 
these approaches is very important.
    I would mention one final source, which is geothermal 
energy. There are new approaches that fracture the deeper parts 
of the Shelf and create the new--new sources of geothermal 
energy that have--this has great potential. It is not very far 
off.
    The Chairman. I sometimes hear people say, ``Oh, gosh, 
those are terrific things,'' when I'm trying to describe some 
of things you have and they'll say, ``Well, yeah, but you can't 
meet the demand fast enough,'' or, ``Those technologies aren't 
adequately developed yet,'' or, ``They're not really cost-
competitive.'' In each case you've articulated today that 
that's not true. You can meet it that fast, they are, in fact, 
competitive, and they're here now.
    Vice President Gore. We----
    The Chairman. Is that accurate or----
    Vice President Gore. I chair the Alliance for Climate 
Protection, and we conducted extensive work with energy 
modelers and policy experts to prove this case, that if we set 
our minds to it, we could, in this country, produce 100 percent 
of our electricity from renewable and carbon-free sources 
within 10 years. That is possible, if we set our minds to it.
    It requires the construction of a National Unified Smart 
Grid, which gives us two new tools: The ability to transfer 
large amounts of renewable electricity from the solar areas of 
the Southwest to the cities where it's used, from the wind 
corridor in the mountain States, east and west of the cities, 
where it's used, and from the geothermal areas. It would 
require a decision to move aggressively to give the incentives 
to quickly build the new concentrating solar thermal and wind 
facilities that are ready to go right now.
    The Chairman. Can you describe those incentives and what 
amount of money you think ought to be put on the table to 
support them?
    Vice President Gore. Well, first of all, I think--and I say 
this to Members of the Senate, particularly--the conditionality 
on the pending block grants to States for efficiency represents 
one of the single most important measures that can be taken. I 
know those sounds like buzzwords and terms of art. Basically, 
what it applies to is decoupling the current set of incentives 
that utilities have to just build more dirty coal plants, and 
instead, given them a way to make money from, not only building 
new coal plants, but from driving conservation and efficiency 
and renewable sources.
    California, on its own initiative, passed a measure like 
this that has already resulted in an explosion of new 
construction for renewable electricity sources in California 
and for a sharp decrease in the use of energy per unit of 
economic output. So, the California system is what should be 
included in the stimulus bill, and the House of Representatives 
has already put it in there. It will be decided in conference 
if it's not changed on the floor, when the Senate bill is 
considered.
    The second provision that I would highlight is the 
renewable tax credits that have to be coupled with what the 
administration has proposed, small grants to make those tax 
credits economically usable in an environment in which some of 
the--those that would use them don't have any profits and taxes 
to pay, so they have to be able to, in some way, shape, or 
form, transfer them, get them refunded in ways that give them 
market value and provide an immediate incentive to start 
construction.
    The Chairman. California, which has seen its economy grow--
I forget what the percentage is--has actually seen its energy 
use per capita go down----
    Vice President Gore. Correct.
    The Chairman [continuing]. Even as the population has 
grown. That is the perfect model, in a sense.
    Vice President Gore. And it's a result of the policy 
changes that they made that have helped California's economy. 
We could get tremendous job creation and other benefits if we 
adopt this, nationwide.
    The Chairman. Is there any way to capture these significant 
pockets of methane as they become exposed?
    Vice President Gore. In the Arctic? I don't know. I have 
not heard of any proposal to do that. I'm sure there's 
research, but it covers such a broad area, it would not seem to 
be feasible. But, if--you know, scientists come up with new 
ideas all the time. I have not heard any way of doing that.
    The Chairman. Mr. Vice President, share with us also--
perhaps addressing some of the concerns of Senators here and 
House members--about the local economic competitive dislocation 
and/or cost of doing some of this. The quick hit you hear 
repeatedly right now because of the economic downturn is, ``How 
are we going to afford to do this?'' Do you want to speak to 
that?
    Vice President Gore. Well, it may be a classic turn of 
phrase, but I think the better question is, How can we afford 
not to do this?--not only because it's a question of urgency 
for civilization, but also because making this transition is 
one of the best and most effective ways to create good, new, 
sustainable jobs quickly.
    There is a tremendous growth in these new renewable 
industries. And the world is beginning to shift dramatically in 
this direction. If the United States once again takes its 
customary role as the leader of this new trend, then we will 
create the most jobs and gain the most economic benefit.
    The Chairman. Speak to me for a minute, if you will, or to 
all of us, about Copenhagen. You were at Kyoto, you helped lead 
that effort, and, indeed, signed that agreement. What is the 
key to making Copenhagen a success? You've articulated that we 
need to pass a cap-and-trade. But can you give us a sense of 
what your thoughts are about the shape of Copenhagen and how to 
get there?
    Vice President Gore. Yes. I think, for our country, the 
road to Copenhagen is to pass the green stimulus measures now 
pending, pass the cap-and-trade legislation this year; and 
those two measures, combined, will give us not only the moral 
authority to lead, but also give us the ability to 
prospectively book impressive CO<INF>2</INF> reductions in the 
years ahead that will make it far easier to meet the goals that 
will be negotiated in the Copenhagen treaty.
    In the treaty itself, I think we have to have strong 
targets and timetables, and binding commitments from industrial 
and developing countries. The developing countries, of course, 
will have differentiated, but still binding, commitments. And I 
think the single goal should be CO<INF>2</INF> reduction.
    Second element is the inclusion of deforestation. And, as 
you know, Mr. Chairman, in the conference in Bali, a year ago 
December, there was a successful result in arriving at a 
formula that does allow the inclusion of avoided deforestation. 
Again, 20 percent of global emissions each year come from 
deforestation.
    Third----
    The Chairman. Mr. Vice President, can I interrupt----
    Vice President Gore. Yeah, sure.
    The Chairman [continuing]. You for a minute? I've just been 
informed I only have 2 minutes to get over there to the vote. 
Senator Shaheen is going to benefit enormously by the cycle 
here. Oh, Senator Lugar is back. I--you had a moment there. I 
apologize. [Laughter.]
    Vice President Gore. Congratulations, Chairman Shaheen. 
[Laughter.]
    The Chairman. Did you see the excitement on her face? 
[Laughter.]
    The Chairman. Senator Lugar? Thank you. And then, Senator 
Shaheen. Thanks.
    Senator Lugar. Thank you, Mr. Chairman. Thank you, Senator 
Shaheen.
    Mr. Vice President, in my opening statement--I had a narrow 
part of the picture, admittedly, but you acknowledged my 
farming situation, and I am interested in this. Norman Borlaud 
has testified for many years before the Agriculture Committee, 
occasionally this committee, on the Green Revolution. He was 
not alone in this respect. But, he and many others, including 
Bill and Melinda Gates and their work in Africa, have really 
had obstacles. They've not struck out, but, nevertheless, the 
situation you presented has already led to difficulties with 
regard to soil and water conditions, and difficulties for 
people in Africa to produce.
    Now, as Bob Paarlberg has pointed out in his book, this is 
reinforced by prejudices against genetically modified organisms 
and biotechnology in agriculture. This is a total disaster 
already, and headed toward worse, on the data that you have 
shown.
    This is why my plea is that this become a part of the 
agenda of the picture. Our staff members, at the conference 
that you just attended, struck out again in working with this. 
And I appreciate, within the green or environmental community, 
there are differences on these issues. I've spent some time 
with European-community people in Brussels, and they have 
differences, although some are now moving in the direction, at 
least that I would advocate. But, do you have any further 
comment on this that would be helpful today as to how this 
might become a part of this important agenda? And some 
recognition, as a practical matter, that people in Africa need 
to be fed now, quite apart from----
    Vice President Gore. Yeah.
    Senator Lugar. [continuing]. Catastrophes of 5 or 10 years 
from now?
    Vice President Gore. Yeah. Well, Senator Lugar, thank you 
for your thoughtful comments. Before addressing, specifically, 
genetically modified organisms, I'd like to enthusiastically 
agree with your overall point, that the impact on agriculture 
in developing countries is going to be quite harsh.
    If I could briefly illustrate this with a couple of slides, 
this is from the United Nations Environment Program, and it's 
just an illustrative example. This shows the nation of Uganda, 
and the green areas show the areas that are suitable for 
coffee-growing, and the yellow shows less suitable, but still 
suitable, areas. A 2-degree increase in temperature does this 
to the areas for coffee growing.
    So, the effort to combat global poverty and to feed those 
who are hungry is harshly impacted by the impact of global 
warming, and we have to figure out a way to respond.
    Developing--responses to climate change in the developing 
world can help reduce this poverty, because renewable energy is 
the best way to bring electricity to the places that don't have 
it. The emissions trading system does help them economically. 
And reforestation programs can support rural livelihoods. And 
many in this chamber and elsewhere--I'm not proselytizing; this 
was a slide in this deck that is out of my own faith 
tradition--but, experience suggests that the best way to do 
this is to integrate it into the planning.
    Now, on genetically modified organisms, the treaty is not a 
commercial mechanism, it actually remains up to individual 
nation-states to decide, on their own, if they want genetically 
modified crops. I do believe the treaty, as you have said, 
should have funds for adaptation for Africa and poor countries 
in other regions, and that should include money for help in 
agriculture.
    My own view of the scientific controversy on GMOs is that 
most GMOs turn out to be no different in their impact on the 
environment than the long, slow process of seed selection that 
occurred during the Stone Ages and produced today's main food 
crops. However, Mr. Chairman, we have had several--I would say, 
too many--examples--a small fraction among the many GMO crops, 
but we have had some--that turn out to have had some 
unanticipated, dangerous consequences. I, myself, have not yet 
seen an adequately sensitive and reliable screening mechanism 
to make sure that we catch those few that actually do cause 
problems. But, where we find ones that have been cleared, with 
long experience, then I, myself, am not opposed to their use.
    Senator Lugar. Well, I thank you for that testimony. I 
would just say, from the practical use on my own farm through, 
now, three generations, the yields we've been able to obtain, 
which have been a part of my lifetime, are dramatic. And I 
would say, with regard to our own soil, trees, and the 
environment, that we've used GMO very satisfactorily. I think 
this is possible. But, the point you're making, about certain 
elements being screened, is clearly important.
    On the farm situation, likewise, the need for building 
support in the public is obvious. The Pew Foundation's recent 
report, that's often cited, listed global warming or climate 
change as number 20 out of 20 issues that were important to the 
public now. There may be other months in which the poll does 
better, when we're not in an economic crisis. But, I'm 
impressed with the fact that the Chicago Climate Exchange--and 
maybe as a prelude to some type of cap-and-trade or carbon 
pricing system in our country--has at least established a price 
for carbon.
    Vice President Gore. Yes.
    Senator Lugar. I've become--our farm has become--a member 
of the Exchange. We are a potential seller of carbon. It is 
sequestered in our hardwood trees, which have been measured as 
we planted them, so that this is a new situation. And we get a 
reading on a Web site every day. Carbon is now $2.05 in 
Chicago, as of yesterday.
    This is a very small beginning, but it's an important one. 
And people from that Exchange have been very active in the 
European markets.
    I mention all of this because we'll have debates about it 
again, when we get back to the fact that--does anybody really 
understand how to price, how the exchange occurs, who the 
suppliers are. Are these valid suppliers? Is the carbon in my 
hardwood trees really carbon that is sequestered? Well, I think 
that it is, and we think about no-till planting, likewise, in 
this respect. The National Farmers Union came together for a 
press conference in which I participated last year. They were 
interested in the sequestering of carbon in the soil and how 
not to disturb it. How can we go about doing this?
    But, to the extent that this becomes an income source----
    Vice President Gore. Right.
    Senator Lugar [continuing]. For farmers, in addition to a 
scientific experiment, then that whole difference in American 
public opinion, at least with one large community, occurs in 
practical ways.
    Now, and I cite this because you've worked with public 
opinion for years. These situations are not easy sells.
    Vice President Gore. Right.
    Senator Lugar. But, to the extent there are practical 
measures, with even portions of our population, there may be 
the kind of support. Which leads to my overall question.
    Kyoto did not do well on the Senate floor when it came. And 
if we have a treaty this year--and I hope that we will--this 
one needs to do better. How will we come about, in a bipartisan 
stance, with the support of the country, to get either 60 or 67 
votes, or whatever is required at that point? Can you give any 
thought to that, just as a practical politician, as well as one 
who----
    Vice President Gore. Yeah.
    Senator Lugar [continuing]. Has made a presentation today 
which is exemplary?
    Vice President Gore. Well, thank you, Senator Lugar. I am a 
recovering politician. I'm on about step nine. [Laughter.]
    Vice President Gore. I'd like to, first of all, address 
your comments, if I may, on soil carbon, because I think it's 
an important question that should be addressed.
    As a rule of thumb, the amount of carbon now sequestered in 
trees and forests around the world is roughly equal to twice 
the amount that is in the atmosphere. The amount of carbon 
sequestered in soils around the world is up to four times as 
much as the amount in trees.
    I grew up during the summers on a farm in Tennessee, and 
learned from my dad how to recognize the dark, black, rich soil 
in the bottomlands. And not until recently did somebody clue me 
in that what makes that rich soil black is the carbon. And 
there's eight times as much carbon in the soils as in the 
atmosphere, though the flux in and out is much lower than from 
trees. However, that flux out can increase dramatically from 
the thawing of those frozen soils, and the flux in the other 
direction, more rapid sequestration of carbon in the soils, can 
also be increased--not necessarily with no-till, although I see 
that as an improvement, but with new techniques that help 
farmers increase yields and rapidly sequester carbon in soils. 
They do not yet have the mechanisms to adequately monitor and 
measure soil carbon sequestration, though they are close to 
developing them.
    The two areas of the world that have most wanted soil 
carbon included in the treaty are U.S. farmers and the 
Continent of Africa. Quite a coalition. And if the monitoring 
can be established, then I think it's a very useful measure to 
begin that addition to the process in Copenhagen so that it can 
be included.
    Now, on the prospects for the treaty, as compared to Kyoto. 
The general expectation and acceptance, in the developing 
world, that they will have binding commitments in the first 
phase, makes this a very different kind of outlook than was the 
case with Kyoto. The very fact that developing countries, like 
Brazil and Indonesia, China, which is in its own category, have 
now begun to take initiatives--I think that makes it a very 
different situation.
    And, of course, the strength of the scientific consensus 
worldwide is now far beyond what it was 10 years ago. The 
scientists are practically screaming from the rooftops. This 
is, properly understood, a planetary emergency. It is out of 
the boundaries of scale that we're used to dealing with. And 
one of my personal challenges for the last 30 years has been to 
understand how to talk about it in a way that breaks through 
that denial and resistance. And though some progress has been 
made, more work needs to be done.
    I think that President Obama's leadership, which has 
already been manifested in his statement, just 2 days ago, can, 
itself, be an important new element in firming support for what 
needs to be done.
    Senator Lugar. Thank you very much.
    Senator Dodd.
    Senator Dodd. I think I'm acting chairman----
    Senator Lugar. Yes.
    Senator Dodd [continuing]. So I'll recognize myself, here. 
[Laughter.]
    Senator Dodd. First of all, Mr. Vice President, let me 
thank you for your 30 years of effort in this regard. You were 
a lonely voice, as I recall, in the House of Representatives, 
some 30 years ago, talking about this issue. And occasionally 
history provides leadership like that. Not often enough, in my 
view, but I thank you for it.
    Vice President Gore. Thank you.
    Senator Dodd. And I'd be remiss if I didn't also thank the 
chairman, Senator Kerry, who's also worked very hard on this 
issue, and did a great job yesterday; in fact, in our caucus 
lunch, gave a very eloquent exposition about what we needed to 
be doing in this coming Congress, in preparation for 
Copenhagen.
    Senator Boxer has been terrific on this issue, as well. 
Jeff Bingaman, my colleague from Connecticut, Joe Lieberman, 
and others, have been stalwarts in the efforts to try and make 
this issue more prominent.
    I have just two or three quick questions. One, you just 
alluded to, that I think is so important. I think the public 
perception too often in this debate has been that if we, in 
fact, go this route, that our lifestyles, and our economic 
growth and opportunity are going to be severely hampered. We're 
going to have to make a choice, in a sense. Maybe the political 
equivalency or the economic equivalency of wearing a hair shirt 
if we give up this economic path or dependence on fossil fuels 
that we've been on for so long. Changing that mentality, 
convincing the public-at-large, both here and elsewhere, that, 
in fact, quite the opposite is the case. That's number one.
    Number two, I appreciate your emphasis on Brazil, and 
talking about Brazil. And obviously they've done some 
remarkable things. I was noting that about 50 percent of our 
importation of fossil fuels comes from the western hemisphere, 
from Venezuela, Mexico, Canada; that about 80 percent of the 
renewable energy resources come out of Brazil, with the use of 
ethanol coming out of sugar cane. But, renewable energy poses 
some issues, as well, in that the deforestation efforts, the 
Amazon Basin being that drain that you've talked about, is at 
risk if, in fact, we find an expansion of sugar cane to develop 
more ethanol for foreign markets, which we encourage, to some 
degree, but obviously there are ancillary and related issues 
associated with those efforts. And I'd like to hear you comment 
on these issues, although I was encouraged by the comments you 
made, that Brazil seems to be entering into a stricter regime 
when it comes to deforestation programs.
    And then, thirdly, is the approach. Obviously, Copenhagen's 
coming up. We've had the meetings in Bali and other venues. 
What are your thoughts about more regional approaches to this, 
tying in the economic issues? I think you made a very strong 
point, to begin with, that Iraq, Afghanistan, and our economic 
situation are tied very intimately, as a result of our 
dependence on fossil fuels, particularly coming out of a very 
precarious part of the world. But, does it make some sense 
maybe to look more regionally at this, in terms of economic 
ties--not to supplement that from the global effort, but could 
we potentially have more success on a regional basis, rather 
than on the U.N. or global kind of approach to this?
    Vice President Gore. Well, thank you for a thoughtful 
question, Senator Dodd. I do believe the treaty must be global 
in nature. And I think that the efficacy of a cap-and-trade 
system goes way up when it is truly global. It becomes much 
more efficient, it's not a bucket with a hole in it, it's 
actually a complete system.
    But, in the introduction of renewable sources of 
electricity, it does--it can make a lot of sense to look at 
regional tieups. I'll show you one quick example that was 
published in Nature magazine last--just a year and a half ago, 
that illustrates the proposed super grid in Europe, that links 
northern Africa with Western Europe. Just as one of the 
arguments for helping Mexico's economy was that it's more 
effective to stem illegal immigration by creating more 
opportunities for jobs south of the border, one way to deal 
with the flows of immigration into Europe from northern Africa, 
and through northern Africa, that have generated unfortunate 
outbursts of xenophobia in Europe, is to create more economic 
opportunity there.
    In the Sahara, the sun resource is astonishing. And those 
pink dots there represent concentrating solar thermal plants, 
the technology that I was talking with the chairman about, 
linked in a--what they call a super grid, similar to the 
Unified National Smart Grid that President Obama has proposed 
for the United States. The yellow triangles are wind 
installations on the west coast of Africa. Spain, of course, 
and Germany, are already the leading proponents and installers 
of solar and wind. And by linking Western Europe to northern 
Africa, they can accomplish a shift to renewable electricity.
    There are other regional linkages in Asia. For example, in 
the western part of India, in Rajasthan, in the areas of desert 
where there is a similar very impressive solar resource, there 
can be supplies of renewable electricity that supply the entire 
region. Similarly, in China--China's already building a lot of 
solar plans.
    So, this is just one illustration of how a regional 
approach can be an effective way to shift to renewable 
electricity.
    Senator Dodd. . I appreciate that very much. Any comment on 
the Brazilian effort, with the possibility of expanding into 
that Amazon River Basin with further deforestation to produce 
more ethanol out of sugar cane? Is it a worry, apparently, 
you're not as concerned about that, because----
    Vice President Gore. No, no, I am. Thank you forgiving--I 
didn't answer it, and I thank you for giving me another chance. 
I simply forgot.
    President Lula has recently proposed, on the eve of the 
Poznan negotiation last December, a truly impressive large 
short-term goal of avoiding the deforestation pattern that has 
been so prominent in the Amazon.
    What's been going on there is really very troubling, and, 
with your permission, I'll show you a very quick example of it, 
from the western Amazon basis, over a period of 25 years.
    [Video presentation.]
    Vice President Gore. President Lula's proposal is to stop 
thoughtless destruction of valuable areas of rainforest. And 
it's important to note that the exploitation of the sugar-cane 
growing areas in Brazil, which gives a highly efficient source 
of ethanol that's efficient economically and in terms of energy 
balance, does not have to inevitably have the knock-on 
consequence of causing destruction in the Amazon. It's a 
different area of Brazil, and, with the kind of policy 
innovation that President Lula has proposed, I believe they 
can, if they enforce it--that's been one of the problems with 
past initiatives--if they enforce it, I think that they can 
continue to provide global leadership on ethanol production and 
avoid deforestation. Of course, everyone hopes--and Senator 
Lugar mentioned this--that we will soon be able to move quickly 
to the next-generation cellulosic----
    Senator Dodd. Right.
    Vice President Gore [continuing]. Ethanol that won't 
compete with food crops and will give us better options.
    Senator Dodd. Yeah. Thank you very much.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Dodd follows:]

            Prepared Statement of Hon. Christopher J. Dodd, 
                     U.S. Senator From Connecticut

     Thank you, Mr. Chairman. I would like to join my colleagues in 
welcoming my good friend, Vice President Gore, this morning, and thank 
him for the tremendous work he has done over the years. He has not only 
raised awareness of the dangers of global climate change; he has 
transformed the debate and brought it into the public consciousness. I 
would also like to recognize our distinguished chairman's own work in 
confronting global climate change, most recently during his trip to 
Poland in December as the leader of the U.S. delegation to the U.N. 
Conference on Global Warming.
    In spite of the doubts still voiced by some, the debate over 
whether human-related activities are contributing to global climate 
change is over. The most reliable scientific data we have is crystal 
clear on this issue. According to a November 2007 report by the 
Intergovernmental Panel on Climate Change (IPCC), an international 
panel of some of the most respected scientists in the world, the 
earth's average temperature has increased between 1.1 to 1.6 F since 
the Industrial Revolution, and if nothing is done to curb greenhouse 
emissions, the 21st century could see global temperatures rise another 
3.2 to 7.2 degrees. While this warming trend may seem minor to the 
casual observer, even relatively small fluctuations in global 
temperatures could have potentially devastating impacts on numerous 
species of plants and wildlife, reduce global agricultural yields, 
increase the frequency and severity of storms and hurricanes, and 
contribute to the spread of disease. These dangers represent a global 
threat, and any real solution to climate change must be a global effort 
in which all nations are involved.
    Global action is urgently needed to limit greenhouse gas emissions 
and reduce our dependence on fossil fuels in order to prevent serious 
environmental damage, economic turmoil and increased global conflict 
over resources. However, such an effort is impossible without the full 
support and cooperation of the United States. With only 4 percent of 
the world's population but responsible for nearly a quarter of all 
greenhouse gas emissions, the United States has a moral responsibility 
to lead. Nevertheless, in spite of this urgency, the Bush 
administration did not. Indeed, for all the treaty's flaws, it was 
shameful that the Bush administration abandoned the Kyoto Protocol. It 
is high time the United States once again become a leader in addressing 
the grave threat of climate change. For 8 long years, sound science has 
been ignored, good policy has been ridiculed, and the U.S. relegated 
itself to the back bench.
    We must also be clear that the dimensions of this phenomenon are 
not solely environmental. Our planet's addiction to fossil fuels has 
serious ramifications for the global economy. Recent fluctuations in 
energy prices have impacted the price of food and other essential 
goods, contributing to higher food prices and food insecurity around 
the world. Moreover, dependency on fossil fuels has led to increased 
political tensions between producer and consumer states, including most 
recently Russia and the Ukraine, which led to shortages throughout much 
of Europe. The U.S. in particular has become more dependent on foreign 
sources of energy in recent years, and Americans have seen more and 
more of their hard-earned wealth transferred overseas, often to regimes 
hostile to the United States with poor human rights records.
    With the commencement of the Copenhagen Conference later this year, 
the United States has an opportunity to reengage with the international 
community and not simply take a greater role in the global effort 
against climate change, but lead the world in doing so. Secretary 
Clinton's appointment of Todd Stern as special envoy for climate change 
is a welcome sign that the Obama administration plans to treat the 
threat of global warming with the seriousness it requires and work with 
the international community to find a comprehensive solution. Once 
again, I'd like to thank my good friend, Vice President Gore, for 
testifying before this committee today. I look forward to our 
discussion.

    The Chairman. Thank you very much, Senator Dodd. Thank you 
for your generous comments. I appreciate it.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you.
    And I want to join in welcoming you here. Tennessee has a 
legacy of having people here in the Senate and in public 
service that have been of major consequence and contributed in 
a major way to the public debate. And you, no doubt, have 
helped build that legacy. And I hope, in some small way, to 
follow on. So, I appreciate your being here, and I thank you 
for your presentation, and very much enjoyed your sense of 
humor, too, I might add. Thank you very much.
    Vice President Gore. I benefit from low expectations. 
[Laughter.]
    Senator Corker. You know, my goal in this debate is to make 
sure that, as we move along this road to Copenhagen, that we 
also focus on things like energy security, and that we are 
transparent with the American people. And I think that actually 
is the very best way to build a political consensus that you're 
talking about today. And I really do, I appreciate your 
comments, on the front end, regarding our dependence on oil. I 
certainly appreciate the focus on deforestation. And my goal 
here today is actually to build more of a mutuality----
    Vice President Gore. Right.
    Senator Corker [continuing]. If we can.
    Jeff Bingaman and I spent a week in Europe, meeting with 
carbon traders and European Commission members and others. And 
I think what we've seen, from the initial steps that have taken 
place there, has been a lot of form over substance, in many 
ways, that we can learn from. And, on one hand, some steps were 
taken, but, with free allocations and offsets and all kinds of 
things, there really wasn't the transparency and purity there 
that I think would be most beneficial.
    We're now firing with real bullets. I mean, I think----
    Vice President Gore. That's right.
    Senator Corker [continuing]. The stars have lined up. And 
my sense is that, this year, something may really occur. And I 
hope to sort of be like BASF; they don't make the product, but 
they make the product better. And that's my goal in this 
debate, as I've mentioned.
    You've said some interesting things that I think actually 
could have the result of bringing people together. For 
instance, you have talked, in the past, about a carbon tax----
    Vice President Gore. Right.
    Senator Corker [continuing]. And the fact that, if that is 
implemented, then it ought to be 100 percent returned to 
people----
    Vice President Gore. Right.
    Senator Corker [continuing]. Through a payroll tax, which, 
by the way, I agree with and actually had an amendment on the 
floor, this last year, to that effect, in some degree. Do you 
agree that if--at the end of the day, we're talking--the 
bottom-line result for--on the road to Copenhagen, for those 
who are on the roads in Carthage, around your family farm, is--
we're really talking about increasing the price of carbon--on 
oil, of natural gas, of ethanol, of all those things. And I 
think you've talked about returning that increase in price to 
people----
    Vice President Gore. Right.
    Senator Corker [continuing]. As I have. Should that same 
thing--well, let me just mention one other precursor.
    USCAP was here last week. A lot of well-respected 
companies, CEOs that I've followed throughout my life. They 
made a presentation. And unlike--or, like most things that 
happen around here, the presentation centered on transference 
of wealth from our taxpayers, in most cases, to their 
companies. OK? Or, in some ways making their companies more 
competitive to others. So, it was obviously put together to 
create a competitive advantage for them.
    I think we can build consensus around transparency. And if 
we were to have a cap-and-trade program--and I think, candidly, 
we will, this year--is it your sense that revenues generated 
from that, like you had mentioned on carbon tax, should be 
returned to the American people?
    Vice President Gore. Well, there have been a lot of people 
claiming part of those prospective revenues, and that will be 
for the Senate to determine.
    I think that Senator Lugar's advocacy of funds for 
adaptation to those unavoidable consequences already programmed 
into the climate system represents one destination for the 
global cap-and-trade system; not all of it, by any means, but 
some portion of it.
    Senator Corker. Yeah.
    Vice President Gore. I think that research into the new, 
more rapidly deployable renewable technologies is another.
    But, I certainly believe that the simplest and easiest way 
to solve this problem would be a CO<INF>2</INF> tax that is 100 
percent refundable. The theoretical architect of President 
Reagan's economic plan, Arthur Laffer, who now lives in our 
home State, has publicly endorsed this--Billy Crystal, others--
and that sometimes worries me, but----
    [Laughter.]
    Vice President Gore [continuing]. I think that would be the 
most direct way to do it.
    But, a cap-and-trade system has--they're not inconsistent, 
by the way; I think we need both a cap-and-trade system can be 
implemented globally. And I do think that, in implementing a 
system here in the United States, we should do it in a way that 
pays very close attention to any economic impacts on the 
American people, and we should rapidly create the jobs in the 
building of the Smart Grid and efficiency and conservation 
measures, and renewable energy, and put people to work, and 
make sure that we get a net increase in jobs.
    Senator Corker. Well, look, I want to tell you that I wish 
we would just talk about a carbon tax, 100 percent of which 
would be returned to the American people, so there's no net 
dollars that would----
    Vice President Gore. Right.
    Senator Corker [continuing]. Come out of the American 
people's pockets, and therefore, they're making a value 
decision about carbon. And those who use less, benefit; those 
who use more obviously do not benefit. But, no money is taken 
out of the people's pockets. And actually, I hope that, if we 
do a cap-and-trade program, we can implement those same 
elements.
    Let me talk to you--we talk about a global system, and 
obviously the markets in each area, based on the amount of 
decreases in the economy and all of that, actually affect the 
carbon price. And we've seen--carbon, last year, was at $40 a 
ton, and in Europe today it's much less. And obviously, you 
know, a good recession takes care of a lot of that, right?--I 
mean, just because of energy output. But, the fact is that 
allowances play a major role in distorting the markets.
    One of the things, if you talk----
    Vice President Gore. Right.
    Senator Corker [continuing]. To traders in Europe, they 
wish that they really would have auctioned 100 percent of the--
--
    Vice President Gore. Right.
    Senator Corker [continuing]. Allowances. We have companies 
here--and much of the public doesn't understand that these 
allowances----
    Vice President Gore. Very valuable.
    Senator Corker [continuing]. Are marketable securities. 
And, I mean, this----
    Vice President Gore. Right.
    Senator Corker [continuing]. Is cash, OK----
    Vice President Gore. Right.
    Senator Corker [continuing]. That you can sell, the very 
next day.
    Do you agree with me, and, I think, President Obama, that 
almost all of the allowances ought to be auctioned, and not 
freely given out to companies, that, in essence, again, it's a 
huge transference of wealth?
    Vice President Gore. Personally, I do agree with you, 
Senator Corker. Now, there are people who--for whom I have 
great respect, who have studied this for many years, who 
believe that a 100-percent auction will be practically--in 
practice, very difficult to implement, and that a high 
percentage should be auctioned. I believe, with you, that it 
should be 100 percent auctioned.
    And I appreciate the time you've taken to learn about the 
European system. When they implemented their system, they 
calculated their base year in a very flawed way. But, over the 
recent years, they have modified and changed their system, to 
the point where it's much tighter and working much more 
effectively.
    The fact that they were operating within a global economy, 
most of which did not have cap-and-trade, made their challenge 
very difficult. And, as I said earlier, if it's a truly global 
system, then you'll get the liquidity and the effectiveness 
that will really drive it toward higher levels of efficiency.
    But, I think the best way to start is with an auction.
    Senator Corker. You know, we talk about the ways that we 
should lead. And I think a way that we might also lead is to 
actually set up a system that is transparent, that is pure, 
where the plumbing actually works, because, you know, I think 
we'd all have to say, what's happened in Europe has met with 
mixed reviews because of all these distortions. One of those, 
again, being offsets.
    You know, we've--as of November 1, 2008, International 
Rivers has calculated that most of these offsets, that are 
called clean development mechanisms, that I think hugely 
distort the market--hugely distort the market--most of the 
projects, three-quarters of them, were already under 
construction and were going to happen anyway. And so, the whole 
issue of additionality is a pretty big deal.
    And I actually think we have to figure out a way to deal 
with deforestation in parts of the world. I really believe 
that. But, I think that offsets are another one of those things 
that hugely distort the market, because, instead of actually 
reducing carbon emissions, you're doing things that are highly 
questionable and actually outside the market that you're in. 
I'd love any comments you might have in that regard.
    Vice President Gore. Yeah. Well, another thoughtful 
question. I think there's a general agreement that, in 
Copenhagen, significant reforms of the CDM, as--collective 
development mechanism--has to be--cooperative development 
mechanism--have to be implemented. And I think there's general 
acceptance of that idea, and there's been a lot of work on how 
to reform it and make sure that it's targeted on what it needs 
to be focused on, instead of some of these peripheral areas. I 
agree with you.
    Senator Corker. And if I could just--one last question, Mr. 
Chairman--thank you for the succinct responses.
    I agree with you that carbon capture and sequestration is a 
long ways off. I have a hard time understanding how, on a 
commercial scale, we're going to be doing it. One CEO that's 
highly involved in coal has said that, ``When donkeys fly,'' 
OK, ``we will be dealing with that.''
    I just have to ask--so, as we look at that, and we look at 
energy production in this country--nuclear--one would have to 
believe that, as we deal with the issue of carbon, that nuclear 
would have to play a huge role in that. And I just wonder what 
comments you might have in that regard.
    Vice President Gore. Well, first of all, just a brief 
comment on your statement about carbon capture.
    The one place that--well, one of the places that actually 
has sequestered carbon is in Norway. And it refers back to your 
earlier comment, because, if you ask them the secret to it, 
they say, ``Well, we imposed a CO<INF>2</INF> tax, and we told 
the gas producers out in the North Sea that''--it has 
particularly high CO<INF>2</INF> content--``that if they could 
capture it and sequester it safely, then they wouldn't have to 
pay the tax.'' So, they said, ``OK.'' And they went, and 
they've done it fairly successfully. Now, it's a unique set of 
conditions. There's a demonstration project in Algeria. It's 
not impossible, it's just implausible that it can be done on a 
widespread scale.
    Now, on nuclear, I used to represent Oak Ridge, as you do 
now, where my constituents were, at that--in those years, 
immune to the impacts of radiation. So, I was very enthusiastic 
about nuclear power. And I came to the Congress, in 1976, as a 
very strong supporter of nuclear power.
    I have grown skeptical about the degree to which it will 
expand. I'm not opposed to it, but there is now, in the 
industry, absolutely zero ability to predict, with any 
confidence, what the cost of construction is. The nuclear waste 
storage problem will undoubtedly be solved, but there are other 
problems. They only come in one size: Extra large. And when 
utilities have a limited construction budget and an uncertain 
demand projection, because, with the price of oil going up and 
down, and new conservation measures coming in, they think--they 
fear we might face the kind of situation that we faced in the 
Tennessee Valley area in the 1970s and 1980s, where TVA started 
all these new nuclear plants, on an assumption that there was 
going to be a 7-percent annual increase in electricity usage, 
and then the energy crisis dropped it down to 1 percent, so 
they canceled all those plants, and the ratepayers are still 
paying for the unbuilt plants.
    The utility executives become allergic to placing large 
bets on large increments with uncertain construction costs over 
a long period of time into the future. And that's why you've 
had, in--last year, by far, the largest new construction of 
electricity generation was with renewables. Coal has actually 
gone down, renewables have gone up, and nuclear has been at 
kind of a standstill.
    Now, I think there will be some new nuclear plants, but the 
proliferation consequences will limit its spread as a worldwide 
option. If it did expand dramatically, we would run out of fuel 
in relatively short order, unless we went to reprocessing. And 
reprocessing makes it hugely more expensive and actually 
expands the quantity of high-level waste that has to be safely 
sequestered. That's counterintuitive. I used to think that 
reprocessing would cut down on the waste; it actually increases 
the amount of waste. And so--and the costs.
    So, for all those reasons, I think that it'll play a small 
extra role. I don't think it's a silver bullet, and I don't 
think it'll play a large role.
    Senator Corker. Mr. Chairman, I want to thank you. And if I 
could just say one thing, I think this has been an excellent 
meeting.
    I hope that we, in the Senate, will, instead of concocting 
some Rube Goldberg mechanism that basically disguises what 
we're doing from the American public, will do exactly the kind 
of thing that Vice President Gore has advocated, and that is, 
be transparent, be direct, let people fully understand what it 
is we're doing, return those monies to the American people, put 
a tax on carbon. I think the American people are intelligent, I 
think they get it, if we just explain it to them.
    Again, I want to thank you for bringing one of Tennessee's 
great public leaders here today, and thank you for having this 
hearing.
    The Chairman. Well, thank you very much----
    Vice President Gore. Thank you.
    The Chairman [continuing]. Senator. Let me just say to you 
that we're putting a working group together, which will include 
Senator Bingaman, Senator Boxer, Senator Lieberman, and others, 
and we need it to be on a bipartisan basis. We need your 
involvement and others so that we piece this thing together 
differently from the way we did last year and try to solve a 
lot of the problems of transparency and understanding of it up 
front and early. Our hope is to do that so we can advance 
Copenhagen, as well as our own efforts here in the country. We 
need you to be part of that.
    With respect to the future plants, a new solar power plant 
in California began operating last fall. It used to operate 
under old technology, but new technology has empowered it to 
come back online. The solar thermal factory for the mirrors is 
in Las Vegas. Over the next years--Ausra is the company that's 
doing it--they're going to build two gigawatts of solar power 
plants, generating 4,000 construction jobs, 1,000 operational 
jobs, and clean, green power for over 300,000 American homes. I 
think that's what Vice President Gore is talking about. That's 
the future. Sempra Generation put together the largest thin-
film solar power plant in North America. It's located in 
Nevada, and analysts estimate that it can produce power for 
less than the cost of traditional electricity.
    That's what's staring us in the face if we will get the 
grant money and the incentive money and other efforts out 
there.
    You've been very patient, thank you.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    And, of course, Vice President Gore, thank you for coming 
before the committee to testify, and for your longstanding 
leadership on this issue. It's been incredible. And as your 
testimony has made clear, climate change is a pressing issue 
for the United States, for our environment and economic 
stability, our energy security and independence, and ultimately 
our national security. We can't afford to continue dragging our 
feet on this issue. And you know of my involvement on Africa 
issues and chairing the Africa Subcommittee. You've already 
referred to it several times. I'm concerned that the impacts of 
climate change will be the harshest on those countries least 
responsible for and least able to escape its effects.
    In many of these countries, rampant environmental changes 
are exacerbating droughts, intensifying famine, even 
contributing to conflict over scarce resources. Addressing the 
capabilities of the poorest countries to adapt to the impacts 
of climate change must be a central focus of the upcoming 
United Nations negotiations, and I would like to actually 
pursue your thoughts on some of that.
    Mr. Chairman, I'd like to put my full statement in the 
record, if I could.
    The Chairman. Without objection.
    [The prepared statement of Senator Feingold follows:]

            Prepared Statement of Hon. Russell D. Feingold, 
                      U.S. Senator From Wisconsin

    Vice President Gore, thank you for coming before the committee to 
testify today and for your longstanding leadership on the issue of 
climate change. As your testimony has made clear, climate change is a 
pressing issue for the United States--for our environmental and 
economic stability; our energy security and independence; and 
ultimately our national security. We cannot afford to continue dragging 
our feet on global action to address this multifaceted problem. I am 
confident that the Obama administration knows the importance of playing 
a leadership role in the run up to Copenhagen, and, equally important, 
intends to collaborate closely with our friends and allies. I have been 
deeply impressed by the increasing number of Americans, including many 
in my home State of Wisconsin, who are not only calling attention to 
this problem in their communities and beyond, but also working to be 
part of the solution.
    As chairman of the Africa Subcommittee, I am concerned that the 
impacts of climate change will be the harshest on those countries least 
responsible for and least able to escape its effects. In many of these 
countries, rapid environmental changes are exacerbating droughts, 
intensifying famine, and even contributing to conflict over scarce 
resources. Addressing the capabilities of the poorest countries to 
adapt to the impacts of climate change must be a central focus of the 
upcoming United Nations negotiations and I look forward to hearing your 
thoughts today on how to ensure that is the case.
    Finally, I believe that we here in Congress also have an important 
role to play. In conjunction with the decisions to be made in 
Copenhagen at the end of the year, we must act immediately to require 
mandatory reductions in greenhouse gas emissions. Though climate change 
presents one of the most complicated domestic and international policy 
challenges of our time, it also brings with it tremendous opportunity 
for a new and brighter future. This includes the potential to create 
millions of new jobs, revitalize the economy both here at home and 
abroad, and forge strong partnerships across the globe.

    Senator Feingold. Mr. Vice President, I'd like to hear your 
general thoughts on the importance of the United States 
participating in international negotiations on climate change. 
Specifically, what does it mean for global climate-change 
efforts if the United States does not ratify a post-2012 
agreement? To assist with U.S. ratification, do you think it's 
necessary to establish different obligations for highly-
emitting developing countries, such as China and India, and 
then the more low-emitting countries, such as those in Africa?
    Vice President Gore. Well, Senator Feingold, thank you for 
your kind words and for your leadership on this issue.
    I guess all of us here are vulnerable to chauvinism in our 
pride in the United States of America, but, that having been 
said, I do think it's objectively true that our country is the 
only country in the world that can really lead the global 
community. Some have speculated that, sometime in the future, 
if European Union actually unifies, to a much higher degree, 
and has a president and an effective legislative body that has 
real power, they might somehow emerge as--with potential for 
global leadership. I'm not going to hold my breath. And I don't 
know of any other contender that's even on the scene.
    And again, I don't want to be too proud, you know, to be 
just sort of chest-beating about that, but I just think that 
the United States is the only nation that can lead the world. 
And this is the most serious challenge the world has ever 
faced. Alongside the potential for some nuclear exchange, which 
is a possibility that, thankfully, has been receding over the 
last couple of decades, this is the one challenge that could 
completely end human civilization. And it is rushing at us with 
such speed and force, it's completely unprecedented.
    And as one strategic analyst in the Pentagon wrote in a 
landmark study of why Pearl Harbor wasn't prevented, he said, 
``We, as human beings, have a tendency to confuse the 
unprecedented with the improbable.'' If something's never 
happened before, we tend to think, ``Well, that's not going to 
happen.''
    The problem is, the exceptions can kill you, and this is 
one of them. And if the world's going to respond, theUnited 
States has to lead the world. And that's one of many reasons 
why I'm so grateful for President Obama's bipartisan outreach 
and bold leadership to say the United States has to lead on 
this issue.
    Senator Feingold. Meaning that we would need to ratify a 
post-----
    Vice President Gore. Absolutely. Absolutely.
    Senator Feingold. And what about the distinction between 
highly emitting developing countries, such as China and India, 
versus low-emitting countries, creating different obligations? 
Is that something you think would be appropriate?
    Vice President Gore. Well, you know, the binary categories 
of developed and developing were established before the Treaty 
of Rio de Janeiro, in 1992, at the so-called Earth Summit. 
Senator Kerry and I were there, and I believe some others on 
this committee were. And President Bush--President George H.W. 
Bush signed that. The Senate ratified it. We are legally 
obligated, under that treaty, by the way, to keep the world 
below--to keep emissions below dangerous levels. And since that 
time, the scientific community has fleshed out, with abundant 
clarity, what that means. We are already above dangerous 
levels. So, we have a legal obligation, under that treaty, to 
do it. But, when those categories were established, China 
wasn't what it is today.
    In an ideal world, we would change those categories, and we 
would not have just A and B, we would have different 
categories. But, trying to get that done at the same time when 
we're negotiating one of the most complex treaties the world 
has ever attempted, I fear is almost certainly impossible, 
because those who feel that their equities are damaged by being 
transferred from one category to another are going to--are 
going to fight the change, and there are enough of them that it 
would be very difficult.
    I think that the more effective way to do it, Senator 
Feingold, is to modify the obligations that are expected of 
those in category A and category B, and you can have some 
gradations in those expectations to take----
    Senator Feingold. As opposed----
    Vice President Gore [continuing]. Into account individual--
--
    Senator Feingold [continuing]. To changing the categories.
    Vice President Gore. Correct.
    Senator Feingold. OK.
    Vice President Gore. I'd prefer to change the categories. I 
just don't----
    Senator Feingold. Yeah.
    Vice President Gore [continuing]. Think it's doable.
    Senator Feingold. Let me quickly go to another subject. I 
already said a little bit about it. According to a study, by 
the Intergovernmental Panel on Climate, entitled ``Impacts, 
Adaptation, Vulnerability,'' Africa is one of the most 
vulnerable continents to climate change and climate 
variability. And the report goes on to note that the continent 
has already started to experience the impacts of climate change 
in a manner disproportionate to its emission contributions. So, 
looking forward to these negotiations, again, what steps need 
to be taken to ensure that the needs and voices of poor, 
developing nations, including those in Africa, are fairly 
represented? And whole--specific role does the United States 
have in helping to achieve this?
    Vice President Gore. Well, I agree with comments, earlier 
from Senator Lugar, that a large and adequate adaptation fund 
should be a part of this treaty, to help areas like Africa that 
are already beginning to experience the harshest impacts. 
Thirteen countries in Africa experienced all-time record 
flooding, just a year and a half ago, and some of them are 
still recovering. The epicenter was Ghana. We're seeing, 
really, very difficult drought conditions in many of--and 
linked to these long-term climate--the rapidly-emerging climate 
trends.
    But, the other side of that coin, Senator Feingold, is that 
the solutions to the climate crisis are, in many cases, more 
easily and readily deployable in regions like African than they 
are in developed countries. Just as these nations leapfrogged 
the old, fixed-line telephone service and went straight to cell 
service, they can leapfrog the old, central generating station 
electricity and go straight to widely distributed solar and 
wind. You're seeing a massive introduction of solar electric 
panels in Kenya, for example, and in many other countries.
    The reforestation programs, that will be a part of the 
solution in Copenhagen, can provide large numbers of new jobs 
for employment programs in Africa. Wangari Maathai has 
demonstrated this already with her Green Belt program. So, the 
solutions to the climate crisis can flip this around and 
accelerate the entrance of Africa into the world economy to 
lift standards of living there.
    Senator Feingold. Thank you so much, Mr. Vice President.
    The Chairman. Thank you very much, Senator Feingold.
    Senator Isakson.
    Senator Isakson. Mr. Vice President, it's a pleasure. I 
find your presentations always very informative. And I don't 
think I've missed a one since you've been here. And I'm going 
to take advantage of your being here now. I'd like----
    Bertie, would you do me a favor? Would you make sure the 
Vice President gets this?
    I want to commend you on the talk about open space and 
green space and reforestation. For 10 years, I have promoted a 
piece of legislation called America's Open-Space Environmental 
Infrastructure Act, which deals with creating conservation 
easements to protect natural resources, rivers, streams, things 
of that nature, open space, green space in forests, where an 
individual can still have the quiet enjoyment of their land and 
the government can be ensured of the protection for migratory 
habitat, for carbon production, which--Mother Nature does it 
best by sequestering it, and we both know that. So, I hope 
you'll take it and read it. I would--and I have no pride of 
authorship. You want to take it and promote it, you're welcome 
to do so, because I think it is a key component in what we're 
talking about here today.
    Second, on the--I want to return to nuclear. Senator Corker 
brought it up, and I've--you and I have engaged on this before. 
A couple of things. From 2000 to 2006, the leading country in 
the world in carbon reduction was France, 6 percent; the United 
States, 3 percent. The primary difference, that I can see, is 
that they generate almost all of their electric energy from 
nuclear.
    You--a couple of things you've said, I want to just talk 
about for a second. One is, I had always understood--and I 
stand to be corrected, and I defer to your position, and you're 
probably right and I'm probably wrong--but, I'd always been led 
to believe that the reprocessing of nuclear fuel--spent fuels 
for a second use reduced, by 90 percent, the storage problem. 
Now, you said it was a greater storage problem. So, I'm not 
questioning you, I'm questioning myself, but the--that's what 
I've been told.
    Vice President Gore. Well, that was my impression, also, 
Senator Isakson, until fairly recently. And it is my 
understanding that it--that the volume of waste that has to be 
stored safely actually does increase with reprocessing. The 
industry has even called it ``recycling,'' and it does give the 
impression that it cuts down on the volume, but the information 
that I believe is correct, and I--like you, I am always open to 
being corrected on these things, but I believe it actually 
increases the amount of waste.
    Senator Isakson. I don't know if it's appropriate to ask a 
Vice President to do this, but if you could ask some of your 
staff----
    Vice President Gore [continuing]. I----
    Senator Isakson [continuing]. To research it and get that 
answer to me, I'd----
    Vice President Gore. If it's permitted----
    Senator Isakson [continuing]. Really like to know----
    The Chairman. Absolutely, we'll leave the record open.
    Senator Isakson. Anytime we can get facts right, I'm 
always--because I--we're--as politicians, we sometimes run off 
with a bad idea.
    Vice President Gore. Better than the alternative.
    The Chairman. We'll get the committee staff also to----
    Senator Isakson. Thank you very much.


    [The information referred to above was not available when 
this hearing went to press.]


    Senator Isakson. Second--now, this I think I am right 
about, because I went through it in the 1970s; I was in the 
State legislature. The WPPSS bonds collapsed in Washington 
State. They stopped building the nuclear plants. TVA had their 
difficulty. But, I don't think it's a correct assumption that 
they made a misassumption on the growth of demand. What, in 
fact, happened was that the formation of capital, and the cost 
of servicing it, went so great that the cost of the plants went 
through the roof. Washington State Public Power was paying 
15\3/4\ percent, tax-free, on those bonds, because that's what 
happened to that marketplace at that time.
    Which brings me to a suggestion. I am an advocate of 
nuclear. I do not think, if you accept every dire circumstance 
of climate change--and I'm not saying I don't, I'm just saying 
if you accept every dire circumstance, and you take a clean, 
reliable source of energy, that we know works, off the table, 
or you make it so difficult to do it that you can't do it, I 
don't think--I don't think you can ever get to the solution 
you're seeking.
    But, I will tell you this, the construction, while in 
progress, is a mechanism of financing a powerplant by putting 
it in the rate base and paying cash as you go for a significant 
part of it, that removes the debt service interest component 
from the cost of a plant and gives you are liable way to deal 
with the cost of building those plants. So, one of the problems 
we've had in this country, from the standpoint of nuclear, 
since the 1970s, was, one, the adverse reaction to Three Mile 
Island, first of all--I recognize that; second of all, was the 
cost that blew through the roof in the 1970s, which you 
mentioned. But--Bob is a much better businessman than I am, but 
there are a lot of ways to skin a cat. And if we have the dire 
circumstances we're facing, we need to find every way to skin 
every cat. And I think creative mechanisms of financing and a 
more open mindset, on our part, to using safe, reliable, 
renewable nuclear energy makes a lot of sense.
    So, I apologize for making a little speech, there.
    Vice President Gore. No, no, I--I also have appreciated 
your--the exchanges that we have had. And, as a prelude to 
providing information for the record, one of the experts on 
this reprocessing issue is Allison MacFarlane, at George Mason 
University, who is one of the sources of my information, that 
reprocessing increases the overall volume of the waste, but 
I'll provide her study for the record, and any other relevant 
information.


    [The information referred to above was not available when 
this hearing went to press.]


    Senator Isakson. Thank you.
    Vice President Gore. On your comment about what happened to 
TVA in the 1970s, I think both things are true. No doubt, the 
construction costs went through the roof. In the fall of 1973, 
the Arab OPEC oil embargo shot energy prices up. And coal 
shouldn't be tied to oil, you would think, but it is, and coal 
prices went up, electricity prices went up, and so, 
conservation kicked in, and the cost of construction, as you 
said, went very high. But, it's also true that, when they 
launched their massive program, 21 new reactors, they were 
projecting a 7-percent annual increase in electricity demand, 
and it fell rapidly to 1 percent per year. And it--they talked 
about the decoupling. It used to be one-for-one increases in 
energy use and economic output, and that was decoupled during 
that period in the 1970s.
    I don't take nuclear off the table. I'm not a reflexive 
opponent of nuclear. I just don't see any at-risk private 
dollars going into it, because they--you know, France--Arriva, 
they're a big company there; it's 92-percent owned by the 
French Government, and 95 percent of its output goes to the 
French Government. So, again, the private at-risk dollars, 
that's what is one indicator of whether the market is really 
betting on this or not. If it does, fine. We need to solve 
these problems. But, I just don't think it's going to play that 
much of a bigger role.
    Senator Isakson. Well, I appreciated the response, and I 
would just--I know I don't have any more time, I'd just respond 
a little bit on that.
    What we--the parameters that the government allows, vis-a-
vis finance, has a lot of difference in whether private capital 
will chase that type of investment or not. And the lack of 
belief, right now by most private investment, that nuclear will 
be sanctioned by this country in any form, or would not be 
subject to a reaction, keeps those dollars from following it, 
so it's in our interest, both from a financing mechanism, as 
well as from the regulatory side, to develop some level of 
confidence. The cost of that capital will go down, and the 
formation will expand. But, again, thank you very much----
    Vice President Gore. Thank you.
    Senator Isakson [continuing]. For your testimony today.
    Vice President Gore. Thank you.
    The Chairman. Thank you, Senator Isakson.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, thank you very much.
    Vice President Gore, it's really a pleasure to have you 
here. I thank you on behalf of the people of Maryland, but more 
importantly the people of the world for your extraordinary 
leadership in bringing attention to this issue so that, 
politically, we can get something done.
    Vice President Gore. Thank you.
    Senator Cardin We all know there's a problem, but to get 
the political will has been difficult. I think you've made 
progress for us. So, we thank you for that.
    The United States must exercise leadership, there's no 
question about it. The bill we had last year that started to 
move through committee, it accomplished a specific goal on 
carbon emission reductions. Internationally, it put the United 
States in the leadership role on dealing with global climate 
change, and it provided the tools in order to accomplish it. I 
agree with the Chairman and other comments that have been made. 
We have to put together a broader coalition and we're going to 
have look for modifications to last year's bill. But, I thought 
it was the right message and I hope a bill at least as strong 
will move through this Congress and be signed by President 
Obama.
    I want to mention one issue that's been mentioned; about 
whether the United States can lead without other countries 
joining us from the onset. What do we do about India and China? 
If the United States adopts strict standards, does that put our 
manufacturers at a disadvantage or put our economy at a 
disadvantage?
    I want to tell you up front, I believe that we should lead, 
we should pass legislation, and we shouldn't make a 
precondition that China or India or any other country agree to 
the standards. But I do think we need to be able to have an 
international regime that recognizes the responsibility of 
every nation to reduce carbon emissions.
    One vehicle could be the World Trade Organization, in 
looking for a legitimate way to put a price on products that 
enter the international marketplace that have not met 
acceptable international standards on carbon reduction. Perhaps 
there are other ways to achieve those goals. It seems to me 
that the United States needs to exercise international 
leadership beyond just the specific bills or treaties that deal 
with carbon reductions in the global climate change issue, but 
also making sure that the international community carries out 
its responsibilities. I will welcome your thoughts as to 
whether you believe this is realistic or how we should go about 
making sure that other countries follow our leadership, 
assuming we get the job done.
    Vice President Gore. Well, Thank you, Senator Cardin, and 
thank you for your leadership.
    One of the differences between today and 2007, when Kyoto 
was negotiated, is that there is now a widespread acceptance, 
in the developing countries, that they have to have 
differentiated, but binding, commitments in the first phases of 
a treaty. And back 11 years ago, they were nowhere close to 
being willing to join in, in the first phase. They were willing 
to be brought in, in the second phase. But, now they are, and 
some of them have taken leadership on their own. And I think 
it'll make our task, in this country, of getting support for a 
treaty much easier.
    Senator Cardin. Do you think it's realistic that we could 
use an organization such as the WTO to enforce obligations, if 
other countries do not? Our bill last year, provided for a 
trade remedy. It had a significant enough timeframe so that we 
could get international action before any penalties took place. 
But, it's also probably problematic right now whether that 
would be permitted under the WTO.
    Vice President Gore. That is correct, Senator. And one of 
the most interesting frontiers in international law is the 
intersection of the solution to the climate crisis and the 
world trading system.
    If the WTO could be modified to allow the inclusion of a 
carbon-avoidance component at the border, I personally would 
enthusiastically endorse that. If it cannot be negotiated as 
part of the WTO, then it becomes very difficult for countries 
to do it on their own.
    But, I would add one other point. And Senator Kerry and I 
were talking about this, this morning at breakfast. And Senator 
Lugar and I were talking about soil carbon, earlier. The Doha 
round broke down mainly on the issue of agriculture, and the 
different viewpoints toward agriculture from developed and 
developing nations. If we had soil carbon sequestered in a way 
that allowed credits for soil carbon, and a modification of WTO 
provisions, this could fill the gap that could restart the Doha 
round and integrate the solutions to the climate crisis with 
forward progress on a fair and reciprocal trading system 
reform.
    Senator Cardin. I thank you for those comments.
    Let me just mention one additional issue. We've all talked 
about making decisions based upon science. And you've mentioned 
that many times, and I agree with you. The difficulty is that 
there are different views on the scientific information. I 
think the conclusion is pretty obvious.
    I would just hope that, as we look for our legislation here 
in the United States, but also international treaties, that 
there be some support for uniform scientific information so 
that we all are operating with the same set of facts in what 
we're trying to achieve. And I would just like to get that on 
the radar screen as you're our ambassador on this issue.
    Vice President Gore. Well, thank you, Senator Cardin. And I 
would like to associate myself with the remarks Senator Lugar 
made in his opening statement about are affirmation of the 
importance of science in policymaking. And I share his 
commendation of Dr. Jane Lubchenco and Dr. John Holdren and Dr. 
Steven Chu, all of whom have now been appointed and confirmed 
to important policymaking positions and are outstanding 
international leaders in science. I couldn't agree with you 
more.
    Senator Cardin. Thank you very much.
    Mr. Chairman, I'll put the rest of my comments in the 
record, if that would be permitted.
    [The prepared statement of Senator Cardin follows:]

            Prepared Statement of Hon. Benjamin L. Cardin, 
                       U.S. Senator From Maryland

    We all know the problem: The U.S. imports over 65 percent of our 
oil from foreign countries--many of them openly hostile to our country. 
American consumers are literally financing extreme anti-American groups 
that we fund through our oil dollars. We have a petroleum habit that 
creates national and international security risks, causes long-term 
energy price instability for consumers worldwide, and puts our planet 
and individual health at risk.
    As a member of the Senate Foreign Relations Committee and the 
Senate Environment and Public Works Committee, I recognize that this is 
a global problem that requires aggressive, coordinated action on the 
part of the U.S. and the world community. We must develop a balanced 
energy strategy so that our national security, economy, and environment 
are no longer held hostage by those who might do us harm. We also must 
work with all nations to break our addiction to oil and rebuild our 
economy around alternative, renewable energy sources that are friendly 
to our environment. The longer we wait to act, the harder these 
problems will be to solve.
    Scientists from around the world agree: We must address the 
critical buildup of dangerous greenhouse gases in the atmosphere or 
risk catastrophic results around the world. Rising sea levels could 
swamp low-lying areas, displacing millions of people and causing 
billions of dollars in damage to property. Weather extremes are likely 
to bring extended droughts from areas ranging from central Africa to 
America's Midwest. Loss of life, the rising risk of civil unrest, and 
the specter of coastal communities underwater by the end of the century 
are all clarion calls for immediate action.
    This December world diplomats will convene in Copenhagen, Denmark, 
to finalize the United Nations Framework Convention on Climate Change 
(UNFCCC). The world community will be called on to set tough greenhouse 
gas reduction requirements. This global agreement will have to strike a 
balance that spreads the costs and benefits fairly between developed 
and developing economies. The task is daunting, but the price of 
failure is unimaginably high.
    For 8 years the U.S. failed to constructively engage the world 
community in this unprecedented challenge. That all changed last week 
with the inauguration of Barack Obama as President of the United 
States. In his inaugural address and in statements from the White 
House, our new President has made it clear that America intends to take 
leadership on this critical challenge to our safety, our economy, and 
our environment. Our government's actions will be guided by sound 
science, not wishful thinking. And we will approach this challenge with 
a renewed sense of international cooperation.
    America will not try to dictate the terms of a treaty to a 
skeptical world. Instead, as President Obama has promised, we will 
follow the lead of our international scientific community, which forged 
a powerful consensus based on facts and mutual respect. That same 
respect, and a willingness to listen, learn, and compromise, will be 
the hallmarks of the Obama administration's international diplomacy. 
The challenge of Copenhagen is formidable, but with a healthy respect 
for other nations and an abiding trust in science, this administration 
is prepared to rise to that challenge.
    I applaud President Obama's efforts to ensure that the U.S. is more 
involved and open to legitimate negotiations. America will no longer 
sit on the sidelines as the world formulates the next round of 
commitments by countries to address climate change after the expiration 
of the Kyoto Protocol, which runs through 2012. Already, progress has 
been made at the early working group meetings in Bali, Indonesia, and 
most recently in Poznan, Poland.
    I cannot overstate the need for urgent action. My home State of 
Maryland already has been hit with the effects of climate change. 
Global warming pollution in Maryland has increased 55 percent since 
1960. According to the Maryland Emergency Management Agency, Maryland 
is the 3rd most vulnerable State to flooding, and has the 5th longest 
evacuation times during a tropical storm. About a third of the 
Blackwater Wildlife Refuge on the Eastern Shore has been lost in the 
past 70 years. Smith Island, situated in the Chesapeake Bay, has lost 
30 percent of its land to rising sea levels since 1850. Finally, 
Allstate Insurance Corp. has stopped writing new homeowners' policies 
in coastal areas of Maryland, citing concerns about a warmer Atlantic 
Ocean and the possibility of stronger and more frequent hurricanes 
hitting the area.
    There is some good news. I am pleased to report that international 
companies like BP Solar in Frederick, Maryland, already a leading solar 
energy operator, are ready to grow their businesses and they will have 
the trained workforce to build, install, and operate a new generation 
of electricity-generating equipment.
    Maryland is in the forefront of hybrid technology development too. 
In Hagerstown, Volvo and Mack truck are designing and building hybrid 
truck engines for military use but with great potential for crossover 
to the commercial market. And in Baltimore, Allison Transmissions is 
building hybrid engines for General Motors for use in buses. The 
vehicles being produced in Maryland have significantly greater fuel 
efficiency and will dramatically reduce their need for oil. Many also 
are being tooled to handle a wide variety of bio-fuels. In the future, 
we envision fuel-efficient vehicles powered by home-grown bio-fuels. 
Maryland is helping lead our Nation closer to energy independence.
    The problems of global warming will manifest itself at the local 
level in places like the Chesapeake Bay. And the new jobs of the future 
will be found in places like Hagerstown, Maryland. But to address this 
problem, we need to act on the international stage.
    For the sake of our security, economy, and environment the U.S. and 
vulnerable populations around the world, in Copenhagen and beyond, we 
must fully engage the international community in a concerted effort to 
address global climate change.

    Senator Lugar. I thank the Senator.
    The chairman has asked me to recognize, now, Senator Risch.
    Senator Risch. Thank you very much.
    Mr. Vice President, very briefly, because we all have to go 
vote----
    Thank you, I did.
    Mr. Vice President, you've obviously studied this and have 
produced a lot of information for us today. And what does your 
modeling tell us we will do, as a species, if we don't do what 
you're suggesting--or, if America does what you're suggesting, 
but other countries don't follow? We--you know, we've been 
around a couple of hundred-thousand years, expanded over the 
last 60,000 years only. What does your modeling tell you about 
how long we're going to be around as a species?
    Vice President Gore. Well, I don't--I don't claim the 
expertise to answer a question like that, Senator, but there--
there are some distinguished scientists who have expressed 
grave concern that, along with all of the catastrophes that 
they've predicted over the nearer term if we don't rein in 
these emissions, we could cross a point of no return, beyond 
which the damage could be irretrievable and would grow worse.
    Professor Jim Hansen, in his most recent paper, wrote about 
the ``Venus syndrome,'' which basically means that if we set 
off catastrophic warming, it could become unstoppable.
    Just 2 days ago, Professor Susan Solomon, at NOAA, produced 
a--an important study about how these large-scale changes could 
become irreversible; indeed, some of the--not the most serious 
ones, but some--have already become irreversible; the worst can 
still be avoided.
    Professor James Lovelock, the originator--cooriginator of 
the Gaia hypothesis, has perhaps the darkest view, that human 
civilization would be almost completely disrupted if we don't 
deal with this challenge.
    And these kinds of apocalyptic predictions can, 
unfortunately, paralyze action, because people just hear that 
and they think, ``Oh, well, you know, there's no hope 
anymore.'' But, the scientists tell us that if we act boldly 
and in the near term, we can avoid the worst consequences. And 
I choose to put the emphasis on that part of it.
    Senator Risch. And what--you said, ``They predict what will 
happen if we do act.'' Has anybody predicted what will happen 
if we don't, if we just stay on the course that we're on? Has 
anybody predicted how long we're going to be around?
    Vice President Gore. Well, I don't know that anybody has 
predicted how long the human species would survive if we don't 
act. I think the scenario that those scientists warn us about 
is not for any, you know, extinction of the human species, but, 
rather, of the risk of the collapse of the basis for 
civilization, as we know it.
    For example, a sea-level rise that produced hundreds of 
millions of climate refugees would certainly destabilize 
countries around the world. We've already seen what the influx 
of refugees from Chad into the Darfur region of Sudan has done 
in complicating the tensions and violence there. There are 
other causes, but the head of the U.N. says that's one of the 
principal causes. We've seen climate refugees in other parts of 
the world. We have seen, also, the migration of tropical 
diseases into temperate zones where we don't have the 
immunities and habituation to those diseases, and grave risks 
from that.
    There--the number of threats that are catalogued by these 
scientists is--it's a really daunting list. So, prudence alone 
would dictate that we take action to avoid 'em.
    Senator Risch. Thank you, Mr. Vice President.
    Thank you, Mr. Chairman.
    Vice President Gore. Thank you, Senator.
    Senator Lugar. Well, thank you very much, Senator.
    Vice President Gore, the Chair will call for a temporary 
recess, pending the return of the chairman. He is voting, as 
you know, and----
    Vice President Gore. I'm familiar with the exercise, 
Senator. Thank you. I'll be here when you all get back.
    Senator Lugar [continuing]. So, we'd ask for your patience, 
and that of those who are witnessing the hearing.
    Vice President Gore. Thank you.
    [Recess.]
    The Chairman. Thank you all very much for helping us out 
with the schedule.
    Senator Menendez, I think you're up.
    Senator Menendez. Thank you, Mr. Chairman. And I appreciate 
your leadership in this context, in using the committee's 
jurisdiction to move this issue along.
    And, Mr. Vice President, welcome, again.
    Vice President Gore. Thank you.
    Senator Menendez. Thank you for your incredible leadership. 
You make this crystalline for those who don't either understand 
it or want to understand it.
    Vice President Gore. Thank you.
    Senator Menendez. And I appreciate your incredible advocacy 
in this respect.
    As you've well noted, the situation is grim. The challenge 
presents us with equally great opportunities for action. And I 
believe there are three things we need to do to get past the 
old rhetoric and get moving to address climate change. We've 
got to work through the fears that addressing climate change 
will hurt American competitiveness. We need to gather all the 
stakeholders, including business, labor, and the environmental 
community, and figure out the real data on how a carbon price 
will impact carbon-intensive industries. And once we have that 
data, we can address those impacts. And it's time to get past 
the rhetoric and get to a set of numbers we can all agree on. 
And there are several of us who are working on that.
    Second, if costs are a key concern, let's determine what 
the true costs of lowering greenhouse gas emissions are, versus 
the costs of climate-change impacts from unfettered emissions. 
And I think, in Great Britain, they produced that Stern review, 
which stated, if we don't act, the overall costs and risks of 
climate change will be equivalent to losing at least 5 percent 
of global GDP each year, now and forever. I think that's pretty 
dramatic.
    And third, we need the President and other leaders to 
prioritize climate change and raise awareness about the 
inevitable effects we will all feel as the climate continues to 
warm.
    So, I want to join my voice to the chorus of voices that 
you have brought people to in this respect, as well as the 
Chair.
    I have a couple of questions.
    First, particularly close to my heart is the devastation 
that will result from rising sea levels. In a report released 
just 2 days ago, the National Oceanic and Atmospheric 
Administration noted that even conservative estimates could 
mean that, ``many coastal and island features would ultimately 
become submerged.'' Mr. Vice President, ``submerged'' is a 
frightening word to States, such as New Jersey, that have 127 
miles of incredibly important coastline that supports very 
complex ecosystems and are an integral part of so many people's 
lives. It is also a great part and driver of our economy, as 
well, second largest driver of New Jersey's economy, and I'm 
sure many coastal States would find themselves in the same set 
of circumstances.
    So, no one is better at raising awareness of climate 
impacts than you are, so, first of all, I have an invitation. 
Will you join me, this summer, at the Jersey Shore so that, in 
fact, we can see, firsthand, the challenge that we have and the 
resources that would be put at risk if, in fact, we don't act, 
and act quickly, on global climate change?
    Vice President Gore. Well, I love the Jersey Shore----
    [Laughter.]
    Senator Menendez. I figured it was an easy one, you know.
    Vice President Gore. Well, thank you for the invitation. 
We'll try to work that out.
    Senator Menendez. Last September you spoke, along with 
fellow Nobel Peace Laureate Wangari Maathai about the 
importance of including forest preservation efforts in a carbon 
market. And a report by the Union of Concerned Scientists 
stated that, ``If the international community invested a total 
of $5 billion annually, we would reduce emissions caused by 
clearing tropical forests by 20 percent in the year 2020, which 
would be the equivalent of taking 100 million cars off the 
road.''
    Do you support the idea of addressing international 
deforestation and degradation through market mechanisms?
    Vice President Gore. Yes. I definitely think that the 
problem of deforestation should be included in the treaty 
negotiated at Copenhagen, because more than 20 percent of the 
world's global warming pollution each year comes from 
deforestation.
    It used to be extremely difficult to put that in the same 
conversation with industrial emissions, but, starting in the 
conference in Bali, a year ago in December, the formula was 
pretty much agreed to, and I think everybody now has a high 
degree of confidence that this new treaty will include this 
element, and will be included in the market mechanisms.
    Senator Menendez. And do you think we can create the 
regulatory and enforcement capability to make such a market 
work effectively?
    Vice President Gore. Yes, I do. And a lot of work's been 
done over the last several years, to make that possible, and I 
think there's now a high degree of confidence in it.
    Senator Menendez. Mr. Vice President, because of the recent 
financial scandals and the economic downturn, there has been, 
by some, an increasing distrust of market mechanisms. And I 
understand the skepticism of some, but I also believe that 
properly constructed markets, such as a cap-and-trade system, 
can be a powerful tool to lower emissions in an efficient 
manner.
    How would you respond to those who express doubt about 
creating a carbon market? And if we do create a cap-and-trade 
system, is there anything wrong with taking some of the auction 
revenues and using them for green energy research--making 
homes, for example, more energy efficient--and training workers 
for a green economy?
    Vice President Gore. Well, I certainly agree with the last 
part of your comment, and I think your question is a very 
important and interesting one, Senator Menendez.
    Capitalism itself has been under attack in the wake of the 
synchronized global recession and the credit crisis that has 
now gripped the global economy. But, we know, from long 
experience, that capitalism unlocks a higher fraction of the 
human potential than any other system. And when properly 
pursued, with adequate and appropriate regulation to protect 
the public interest, it is, by far, the best way to proceed.
    Now, the most serious defect in the way capitalism has 
addressed this climate crisis, up until now, has been what the 
economic theorists call ``externalities.'' And--meaning, of 
course, that the horrible consequences of dumping 70 million 
tons of CO<INF>2</INF> into the Earth's atmosphere every 24 
hours are not anywhere included in the market's calculation of 
the costs and benefits of energy choices and economic choices.
    If an individual or a business can simply dump the 
pollution on others, and not have to reflect the cost of 
dealing with it adequately in the economics of what they're 
doing, then obviously, if that's a free way to evade the 
responsibility for that cost, they're going to do it. And 
CO<INF>2</INF> has been a particular challenge, because, unlike 
most other forms of pollution, it's invisible, tasteless, and 
odorless, and it's evenly distributed, globally. So, the old 
aphorism, ``out of sight, out of mind,'' certainly applies.
    With the new recognition that this is, by far, the most 
serious challenge we've ever faced, the efforts to internalize 
those environmental costs so that they're not externalities is 
the prime challenge to remedy the problems that capitalism has 
experienced there. Rejecting a market mechanism as a part of 
the solution because one is--whoever it is--skeptical about the 
market, is shortsighted if it doesn't take into account the 
dire problem with markets that has to be remedied by including 
it.
    Senator Menendez. Well, thank you very much. I agree with 
you wholeheartedly. Again, I appreciate your leadership.
    Mr. Chairman, I've had the privilege, in the last Congress, 
of chairing our subcommittee that deals with international 
environmental agreements, and any way we can complement your 
work at the full committee, we're looking forward to doing 
that.
    The Chairman. Well----
    Senator Menendez. Thank you, again.
    The Chairman [continuing]. Senator, you've been a terrific 
leader on it, and we obviously need your continued input and 
look forward to working with you very, very closely.
    Senator Shaheen. Finally. [Laughter.]
    Senator Shaheen. Thank you.
    Mr. Vice President, thank you so much for being here, and 
for everything that you've done to raise awareness about the 
challenges of global warming.
    Vice President Gore. Thank you. I can't tell you how glad I 
am to say that phrase, ``Senator Shaheen.''
    Senator Shaheen. Sounds good to me, too. [Laughter.]
    Senator Shaheen. In 2007, people in New Hampshire--164 New 
Hampshire towns--passed a resolution calling on Congress and 
the President to act on climate change in ways to protect the 
U.S. economy and environment. It was a very impressive showing 
for New Hampshire, as I'm sure you appreciate.
    And, as you have pointed out, and others have echoed here, 
it's critical that the United States be a leader in the world. 
And it seems essential that, if we're going to do that with the 
kind of credibility that we need, that we need to act 
domestically to address global warming here in the United 
States. And, as you pointed out, President Obama has said that 
we need to do this, and he's indicated his support for a cap-
and-trade approach.
    And Senator Corker talked about a carbon tax and returning 
the carbon tax to the people of the country, but--do you have 
any comment--one of the proposals about a cap-and-trade 
approach which would have the funds raised through the auction 
go back to taxpayers in some form, through the payroll tax or 
other means?
    Vice President Gore. Yes. I think that it is important to 
mitigate the impact of any such measure by returning revenues. 
I think that, as I said in response to earlier questions, there 
are many claimants for that potential pool of revenue, and the 
Senate and the House will have to sort that out.
    I do believe that a revenue-neutral CO<INF>2</INF> tax is 
the simplest and best way to proceed. I've proposed it for 20 
years, and wasn't even attacked on it, because it was seen as 
so implausible.
    I think it's more plausible now. I think there is somewhat 
more support for it. But, I think it's still widely recognized 
as in the highest degree of political difficulty; and 
therefore, there's a risk of making the best the enemy of the 
better.
    And I think--you know, it's not an accident that most every 
climate bill that's been introduced is based on cap-and-trade. 
Almost every national approach that has been undertaken is the 
same, although nations like Norway and Sweden, New Zealand, and 
others, have adopted a CO<INF>2</INF> tax, part of which is 
rebated. The provinces of Quebec and British Columbia have also 
enacted it, and others are actively considering it.
    So, I don't think it should be ruled out just because it's 
politically difficult, and it could be coupled with cap-and-
trade. But, in the real world of the political pressures that 
this body faces today, I think it's more likely to expect that 
a cap-and-trade system will be the instrument of first choice.
    Senator Shaheen. Well, maybe I wasn't clear enough. What 
I'm suggesting is that the revenues generated from the auction 
in a cap-and-trade could--rather than all of them going to 
promote other renewable alternative----
    Vice President Gore. Yes.
    Senator Shaheen [continuing]. Energy sources, to have 
either all, or some percentage of them, come back to----
    Vice President Gore. I agree.
    Senator Shaheen [continuing]. Taxpayers in some way, as a 
way to help make the cap-and-trade----
    Vice President Gore. Absolutely.
    Senator Shaheen [continuing]. More palatable for those 
opponents.
    Vice President Gore. Absolutely. I agree with you.
    Senator Shaheen. My other question has to do with 
transmission. And obviously one of the things we're going to 
have to do in this country if we're really going to get where 
we need to go, in terms of alternative and renewable energies, 
is to change our transmission system.
    Vice President Gore. Right.
    Senator Shaheen. And one huge issue with respect to 
transmission is how the siting gets done and who has 
responsibility for that. Obviously, States have tended to hold 
on to that responsibility very jealously. Do you have thoughts 
about whether there should be a Federal entity that takes 
responsibility for transmission siting, or whether there's a 
way to address the matter of each State wanting to have control 
in a way that makes it so difficult to get any changes to the 
transmission system done?
    Vice President Gore. I believe that our country needs a 
Unified National Smart Grid, with a large Federal role, not to 
the complete elimination of State and regional roles. But, we 
now have a Balkanized system, with three interconnected grids--
one in the East, one in the West, one in Texas--and lots of 
smaller systems within each of the three.
    And, you know, utility economics is to economics roughly as 
quantum physics is to physics. The normal rules don't appear to 
apply. And so, for example, in many regions of the country, no 
matter the available of--availability of renewables or 
conservation options, the utility is rewarded far greater for 
the dirtiest electrons that they can possibly provide. And if, 
within that system, they are given the authority to bring in 
new dirty coal-fired electricity to replace some of the 
renewables that are coming online, that would be a tragic 
result.
    So, I think we need a Unified National Smart Grid that 
places a priority on renewable electricity. And the new grid 
has roughly two components. One is the ability to transmit the 
power over long distances, with low losses from the solar 
energies of the Southwest and the wind corridor in the mountain 
States, for example, to Manchester, New Hampshire, and other 
places where it's burned.
    Second, it has the ability to give consumers--homeowners 
and business owners--a much greater, more sophisticated degree 
of control over how they can eliminate the wasteful use of 
energy and save money at the same time they're reducing 
pollution.
    Senator Shaheen. Thank you.
    Vice President Gore. Thank you.
    The Chairman. Thanks a lot, Senator Shaheen.
    Senator Kaufman.
    Senator Kaufman. Mr. Vice President, I'm very glad to see 
you here.
    Vice President Gore. I like that phrase, also, ``Senator 
Kaufman.'' [Laughter.]
    And I'm happy that we've had a chance to work together for 
so many years.
    Senator Kaufman. We haven't had a chance to talk recently, 
but I'd just tell you how impressed I am with----
    Vice President Gore. Thank you.
    Senator Kaufman [continuing]. What you've been doing on 
this issue.
    And do you really feel the economic recovery bill is a step 
forward, in terms of climate change?
    Vice President Gore. I think that the House version of the 
bill, H.R. 1, is an excellent bill. There are a few minor 
changes, of course, that I think could usefully be made; but, 
overall, I think that the President's proposal, and the House 
iteration of the bill, is really outstanding.
    Since you asked my opinion, I have not gotten the results 
of the late-night session on the Senate Finance Committee last 
night, because I was coming here to testify, but I'm very 
concerned that the committee version would result in a complete 
screeching halt to any construction of solar facilities or wind 
facilities on a significant scale anywhere in the United 
States. And that would be a perverse outcome, if that provision 
wasn't changed in the middle of the night, or isn't changed on 
the Senate floor, if it's still in the bill.
    Second, I think that the Senate legislation, as it 
currently stands coming out of committee, is--has a serious 
problem, compared to the House bill, in not applying the right 
conditionality to the State efficiency grants, particularly on 
this issue of decoupling.
    And we talked about this a little bit earlier, but, you 
know, California came up with a way to give the utilities a 
profit making incentive to give the right priority to 
conservation and efficiency and renewable energy, and not just 
sell more dirty electrons.
    And the House bill, as it came out of the House Commerce 
Committee and to the floor, has a terrific provision on this. 
And special interests are opposed to it, naturally. And I don't 
know the reasons why that has been eliminated, thus far, in the 
Senate draft. But, again, I know there are many people in the 
Senate who will be eager to get the right kind of provision 
when that bill comes to the floor and that it comes out of the 
conference committee.
    Senator Kaufman. You know, you've been incredibly 
articulate, both on the scientific and the economic 
implications of climate change, but I also know in there lies a 
very good political mind, and I'm just trying to just tap into 
that for a second. Can you just talk a little bit about how we 
get the votes in the Senate to make all this happen, kind of 
how you put that together?
    Vice President Gore. Well, I think that the road to 
Copenhagen is--has three steps to it.
    First of all, pass the green stimulus provisions of 
President Obama's recovery plan, and book the CO<INF>2</INF> 
reductions that can come from that plan.
    Second, pass a cap-and-trade bill here in the Senate. 
Having laid the groundwork for the CO<INF>2</INF> reductions 
that will come with the green recovery program and the Unified 
National Smart Grid and the renewables and efficiency and 
conservation, then the degree of difficulty in implementing a 
cap-and-trade system that's intelligently designed, I think, is 
far less.
    And then, the third step is to go to Copenhagen, behind 
President Obama's leadership, and get a treaty that's ratified 
and allows the U.S. to lead the world again.
    Senator Kaufman. Can you tell us a little bit about how you 
build that coalition at Copenhagen, how the President should 
build that coalition at Copenhagen?
    Vice President Gore. Well, I think that one of the real 
keys is firming up the willingness of the developing countries 
to undertake, the phrase is, ``differentiated, but binding, 
obligations'' in the first phase. If they were not subject to 
some binding obligations in the first phase, then we would, 
once again, face a political challenge here in the U.S., 
particularly when IT-empowered outsourcing creates new 
competitors in the developing world. So, I think that their new 
willingness to accept differentiated, but binding, obligations 
is really one of the real keys to building that coalition, and 
those countries ought to understand that the ability of the 
United States, and therefore the world community, to deal with 
this crisis expeditiously and effectively really does depend on 
the willingness--well, it depends on a lot of things, but one 
of them is the willingness of these developing countries to 
accept differentiated, but binding, obligations in the first 
phase.
    Senator Kaufman. And how do you think the present recession 
is affecting our ability to convince them to sign on to this.
    Vice President Gore. Well, again, I believe that--you know, 
the old cliche is, ``Crisis is both danger and opportunity''--I 
believe this is a tremendous opportunity to put a lot of people 
to work, quickly, in sustainable, high-paying jobs. And in the 
developing countries, you have certain opportunities there that 
don't exist here. Just as some of those countries leapfrogged 
over the old fixed-line telephone service and went straight to 
cell phones, some of them are going to skip over the old dirty 
coal-fired generating plants and go straight to solar and wind. 
And if you don't have all that existing legacy infrastructure, 
the economic advantages of renewables are even more pronounced.
    Also, tree-planting programs, which, along with avoided 
deforestation, can result in the sequestering of a lot of 
CO<INF>2</INF> from the atmosphere; that creates a lot of jobs 
in the developing countries.
    And one final point. We talked, earlier in the committee, 
about including, prospectively, soil carbon in the 
calculations. That can't happen in Copenhagen, because the 
spadework hasn't been done to do the monitoring and compliance 
to a degree of reliability and satisfaction that will make it 
possible to do it this December. But, we can start that process 
going, just as the avoided deforestation was, in previous 
meetings.
    And if we can include it, then, in these poor countries 
that need better agricultural techniques and more income, soil 
carbon sequestration can be a very important new element, 
prospectively, in getting them integrated into the global 
economy.
    Senator Kaufman. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Kaufman.
    Mr. Vice President, just picking up quickly on a couple of 
those thoughts, if indeed we can leapfrog,--and I absolutely 
agree with you that this is a wonderful opportunity for people 
to avoid making the mistakes we made--there's been a lot of 
talk about the technology transfer, technical assistance, and 
adaptation and other components of this. Do you have a sense of 
how much we ought to be putting on the table in order to 
advance this conversation as rapidly as possible and to show 
our bona fides? It was my impression that if we put multiple 
billions on the table as a mark of America's commitment to 
helping other countries to be able to do this in a way that 
doesn't repeat our mistakes, but at the same time doesn't 
handicap their economies in growth, we advance this discussion 
much more rapidly.
    Vice President Gore. Yeah. Well, I think we should, for a 
number of reasons.
    First of all, because a shared technology program and a 
large adaptation fund, both are keys to gluing together a truly 
global agreement.
    But, second, if we can kick-start a massive global shift 
from an energy infrastructure that depends on dirty and 
expensive carbon-based fuels to an infrastructure that is based 
on fuels that are free forever--the sun and the wind, 
geothermal--then there will be so many opportunities for 
business and sustainable growth and jobs creation for Americans 
companies, marketing these new technologies all around the 
world, everybody that's--that is making these new systems will 
have all that they can handle, and more. The supply-chain 
bottlenecks will be the constrains, and then there'll be 
innovation to get around those.
    But, just as the United States led the world in the 
economic--post-World War II economic boom, we can lead the 
world with our own job creation and higher living standards by 
leading this transition to a low-carbon economy. And 
technology-sharing and adaptation support, those are two of the 
keys to kick-starting this revolution.
    The Chairman. I couldn't agree with you more. And as I look 
at the imperative that you so brilliantly laid out today and 
that the science is telling us requires quick action, as you 
measure that, the inclination is to--at least for those of us 
who have hook, line, and sinker, bought into that science--say, 
``Why aren't we moving more rapidly with respect to that 100-
mile zone that you've described?'' If you've got 100 square 
miles----
    Vice President Gore. Yeah.
    The Chairman [continuing]. And we properly developed it, we 
could be completely fossil fuel free in the production of our 
electricity for the United States, and then move our 
automobiles more into the electric grid--
    Vice President Gore. Right.
    The Chairman [continuing]. Where they're plugged in at 
night when you're producing the same amount of electricity. 
That's a revolution----
    Vice President Gore. Right.
    The Chairman [continuing]. In and of itself, with respect 
to America's national security, the environment, our global 
climate change, our health, almost every obligation. So, you 
say to yourself, ``Why aren't we doing that?''
    Vice President Gore. Well, I think one reason is, we don't 
presently have the infrastructure that makes it possible. 
That's why the first order of business is the approval and 
construction of this Unified National SmartGrid.
    The Chairman. But the question was raised earlier about the 
state restraints we have. The Obama administration has already 
met its own level of frustration as they've sought to try to 
accelerate the deployment of that grid, and we find, ``Oh, 
gosh, you know, you can't actually get the lines in here,'' or, 
``You can't do this.'' Does that require preemption? Is that 
the first order of business here, to create the national 
structure that facilitates the deployment of that?
    Vice President Gore. Yes. I think we need a national 
unified system, with a large Federal role, with preemption 
being used very carefully, and in support, primarily, of the 
renewable electricity options. But, yes, that's what we need.
    You know, the introduction of the Internet kicked off a 
huge surge of economic growth and job creation. And people talk 
about the ``bubble and bust.'' Well, actually, the sustained, 
long-term creation of jobs and income and economic activity as 
a result of the Internet, and the software explosion that 
accompanied it, and the personal computer explosion, and all of 
the applications, it has been phenomenal.
    Similarly, the construction of the railroads in the 1800s, 
the building of the Interstate Highway System in the 1950s, 
1960s, and 1970s, these national unifying infrastructure 
projects were each accompanied by a wave of sustained economic 
growth and higher standards of living.
    The next wave will follow the building of the Unified 
National Smart Grid. And yes, that, in some cases, will be the 
careful and judicious use of preemption, with a careful eye 
toward not having it facilitate more dirty electrons, but put a 
priority on renewable electricity.
    The Chairman. I agree with you. The reason I asked the 
question is that it strikes me that there has to be a greater 
level of urgency and focus on that central infrastructure 
component----
    Vice President Gore. Yeah.
    The Chairman [continuing]. From which so many other things 
will evolve.
    With respect to China, it also strikes me that we're 
staring at a unique opportunity. And I wonder if you agree that 
if the United States were to rapidly reach out to China and try 
to establish a joint-venture effort on research, on some of the 
technology transfer, and even on some of the technical 
assistance, and ahead of Copenhagen at a bilateral level we 
were to try to reach an understanding about our joint 
leadership role here--we're number one and two emitters in the 
world; together, about 40-plus percent, I believe, of all the 
greenhouse gas emissions--and we came to that agreement, it 
seems to me that would do an enormous amount to leverage what 
happens towards Copenhagen.
    Vice President Gore. I couldn't agree with you more. And 
recent statements by Chinese leaders have made it very clear 
that they are changing, and changing rapidly. Resistance, at 
the regional level, has been moderating, somewhat. They do have 
a somewhat different approach; instead of cap-and-trade, they 
have cap-and-imprison. And I don't necessarily endorse that 
approach, but it seems to be of some effectiveness in some 
regions, and they are beginning to shift.
    I put just one illustrative statement by one of the policy 
leaders in China, saying, ``It's in China's own interest to 
accept greenhouse gas emissions goals, not just in the 
international interest. Unless we become one of the biggest 
green contributors, we will be one of the biggest victims of 
global warming.''
    And, of course, President Hu and Premier Win have, 
themselves, repeated made bold, and even visionary, statements 
on why China has to move quickly to limit the damage from 
global warming and to introduce renewable energy.
    Now, implementing that, executing those policies, that's a 
different story. But, I think the basis for United States-
Chinese cooperation in leading the world on this issue is 
certainly there, and I endorse your idea.
    The Chairman. Last question, and then I'd like to make one 
observation. With respect to India and China, our mutual 
friend, Vinod Khosla, has talked about the electric solution 
being something that we can talk about here in the United 
States, but that there's no electric solution in much of Africa 
India, and China, because they just don't have it, and they're 
not going to have it in the near term. So, as they bring their 
combustion engines online--which they will as more and more 
Chinese, Indians, and others want to drive cars--what's your 
thought about how we approach the transportation sector in 
those countries with respect to global-climate-change 
standards?
    Vice President Gore. Well, I wouldn't give up on electric 
vehicles in those areas, because central--concentrated solar 
thermal generating systems actually can be introduced quickly 
and profitably in India, in the desert regions of the West, and 
connected by their own smart grid to areas where the 
electricity can be used.
    In Africa--I showed the slide, earlier, of the supergrid 
connecting northern Africa to Western Europe--that can also 
provide electricity from the Sahel down into sub-Saharan 
Africa, as well, as demand grows; a line from the heavily 
insulated areas to Lagos, for example, to Nairobi. The 
potential is certainly there.
    Now, low-emission internal-combustion vehicles will be 
introduced. But, advanced biofuels made with cellulosic ethanol 
and some of the new technologies that sound like gobbledygook--
enzymatic hydrolysis--some of the new approaches that really do 
offer the promise of making liquid biofuels from weedy plants 
that don't compete with food in ways that recycle the CO<INF>2</INF> 
through the next year's crop, absent the processing costs, that 
does offer the hope for a more renewable, low-emitting advance 
in transportation infrastructure in these small countries.
    The Chairman. I thank you for that. It's your belief, then, 
that the solar can, in fact, be deployed rapidly enough in 
those countries?
    Vice President Gore. I have no question about it at all.
    The Chairman. I would just observe that many people in 
their reluctance to believe that we can embrace these goals as 
rapidly as many of us think we have to need to recognize that 
the states are, on their own, way ahead of the Federal 
Government. And, in fact, over half of the American economy is 
already voluntarily under mandatorily-accepted reduction 
schemes.
    Specifically, in the Northeast you have the RGGI agreement 
where they've actually promulgated regulations and are, on an 
interstate basis, engaged in mutual reductions.
    In the Midwest, there are ten states--Wisconsin, Minnesota, 
Illinois, Indiana, Iowa, Michigan, Kansas, Ohio, and South 
Dakota--together with Manitoba, Canada--who have joined 
together in an effort to reduce--they still have to put out the 
regulations, but the important thing is that they've agreed 
this has to be done and have been able to come to an agreement.
    In the West as well, you have five states--Oregon, 
California, Washington, New Mexico, and Arizona.
    So, more than half of the American economy has already done 
what Washington, DC, and the Federal Government have been 
unwilling to do, which is to say, ``We recognize this problem, 
and we need to do something.''
    I see you've put up a--you've come prepared for every 
component of this.
    Vice President Gore. The latest count--this is as of a 
couple of weeks ago, and they may have added a few--but, it's 
impressive that 884 cities have voluntarily adopted the central 
principles of the Kyoto Protocol. And even more impressive, 
what you cited, the State programs that actually start putting 
this into effect. And California's been leading the way, of 
course.
    The Chairman. Right.
    Well, Mr. Vice President, I have to tell you, in the years 
I've been here, I've been to a lot of hearings, and this is--
and not because I'm chairing it--one of the most substantive 
and important messages that we've received in that time. I've 
heard that already from my colleagues who are here. They are 
enormously appreciative of your presentation--
    Vice President Gore. Thank you.
    The Chairman [continuing]. Today. This is going to be a 
tough slug, but we're going to try to do it. We're going to do 
everything in our power to keep the pressure on and keep the 
focus on.
    But we are forever grateful to you for the power of your 
advocacy in this effort. We have nothing but enormous 
admiration and respect and gratitude for it.
    So, thank you for sharing it with us today. We look forward 
to working with you in the days to come.
    Vice President Gore. Well, Senator Kerry, it's been my 
privilege to work as your partner for so many years on this. 
And thank you, again, and thanks to the members of the 
committee, for inviting me today.
    The Chairman. We're delighted. Thank you.
    We stand adjourned.
    [Whereupon, at 1:05 p.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record


         Statement submitted by Senator Robert P. Casey, Jr., 
                     U.S. Senator From Pennsylvania

    Mr. Chairman, thank you for calling today's hearing on a very 
important issue facing our Nation and the world today. The threat of 
catastrophic global warming may seem to be a second priority after 
fixing our current economic crisis, but I believe that if we do not 
address both simultaneously we are setting ourselves up for another 
crisis in the future that will have untold consequences on the world's 
economy and population. We must work aggressively to fix our immediate 
problems while ensuring our long-term security and prosperity.
    The solution to global warming is a puzzle with two interlocking 
pieces. One is our role as part of a global solution. The other is our 
domestic policy that will reduce our greenhouse gas emissions so that 
we meet our global commitment. We made a good start last year with the 
first major debate on global warming legislation. But while we continue 
to work on legislation that will make mandatory reductions in our 
greenhouse gas emissions, we must keep our eye on the international 
aspect of this debate.
    Just 11 months from now, we are scheduled to sign off on an 
agreement to address global warming under the U.N. Framework Convention 
of Climate Change. We have a lot of work to do between now and then to 
reestablish ourselves as a world leader and back that commitment up 
with the domestic policy that will achieve the greenhouse gas 
reductions we need to make to fulfill our global commitment.
    As it stands today, I would characterize the U.S. as being behind 
the power curve when it comes to addressing global warming. We spent 
much of the last 8 years thinking up reasons that we couldn't act and 
excuses for ignoring our role in a global crisis. While we have made 
progress, we are still at the beginning of the process of piecing 
together a domestic program that will work for all of the different 
regions of this country. Embracing the goal of reducing carbon 
emissions by 80 percent by 2050 is easier than the actual mechanics 
that will achieve the reductions. We have a lot of work to do to answer 
some very tough questions. For example, I believe that we must have a 
plan for coal. That is, the status quo will obviously not get us the 
reductions we need when a full one-third of all of our greenhouse gases 
come from generating electricity. But coal is an important domestic 
resource that we cannot simply ignore for the sake of expediency. 
Furthermore, the impact of the coal industry on Pennsylvania and other 
States in our region is such that we cannot simply go on faith alone. 
We must have a commonsense future for coal based on science and 
investments in technology that will bridge the gap between today and a 
carbon-controlled future.
    Much of the progress we have made on global warming has been done 
by the States, including the most recent petition of States like 
California and Pennsylvania to be allowed to regulate automobile 
emissions. The States are certainly working hard to keep up their end 
of the bargain, and now it's time for us to do our work both 
internationally and with a national program to slow, stop, and reverse 
global warming.


                               __________

              Responses to Additional Questions Submitted 
               for the Record by Members of the Committee

       responses to questions submitted to former vice president 
                        al gore by senator casey


    Question. You have worked through the We Campaign to establish an 
aggressive goal of repowering America with 100% renewable electricity 
in 10 years. How would you propose to transition away from the large 
amount of base-load coal electricity we have today? Does development of 
new coal technologies fit into the plan?

    Answer. In our projections, we can meet the goal either with or 
without technologies that include the 100 percent capture and 
sequestration of the carbon dioxide from coal. It is my hope that CCS 
technology will be developed and that we will see the success of full-
scale demonstrations. That will require government help, including 
putting a price on carbon, because the coal industry has no incentive 
to spend the considerable sums of money that will be needed to test 
this new technology. I strongly support the new initiatives to help 
explore CCS so that it can become a solution to the climate crisis.


    Question. Coal is also a major part of the tension that is brewing 
with China. There is the famous statement now that China builds two new 
coal power plants every week, although that has slowed with the 
economic crisis. Do you think we should be investing in clean coal 
research so that we can sell future technologies to countries like 
China who have already committed themselves to a long future with coal?

    Answer. Yes, I do believe that we should be investing in CCS 
research, but not to the exclusion of aggressive research and 
development in other areas such as advanced solar technologies, 
storage/battery technologies, enhanced geothermal systems, wind, and a 
unified national smart grid.


    Question. I have heard concerns that the current economic crisis 
and lack of ready credit will make it harder to invest in the 
technologies that we need to put on-the-ground in order to reduce 
greenhouse gas emissions and repower the country. Do you think these 
concerns are warranted? Do you have recommendations for actions we can 
take that will allow us to remain aggressive in pursuit of our goals in 
the midst of this economic downturn?

    Answer. I believe that the President and his team of advisers took 
some very important steps in the stimulus package to help unfreeze the 
credit markets, and I supported those actions. I believe that we must 
continue to monitor these markets closely to ensure that they function 
properly and take corrective measures quickly if they do not. In 
addition to the credit crisis, the recession is also an ongoing threat 
to the economy and one of the best ways to address it is the 
development of green jobs and the building of green infrastructure.


    Question. There is cautious optimism about the potential for green 
jobs to revive America's manufacturing economy. My main concern is that 
we need to train workers so that we are transitioning the workforce as 
we are transitioning the economy. Have you developed any 
recommendations on ways we can provide a safety net to workers, while 
retraining them for new green jobs? Has there been any analysis on the 
net effect of a fossil fuel-free policy on jobs lost in sectors like 
the coal industry versus the jobs gained in alternative energy?

    Answer. I believe that most of the robust analysis in this area has 
focused either upon green jobs over the past decade or upon the near-
term effects of President Obama's policies. I have seen studies from 
the NGO community and elsewhere that have attempted to both define 
``green jobs'' and look at the gross and net effects of job growth. If 
you would like for us to compile some of those for you, please do not 
hesitate to ask and my staff will get back to you.


    Question. What about our exporting domestic coal resources to 
growing economies like China and India? Should the U.S. adopt a ``coal 
free'' approach when our coal no longer has a market in the U.S.?This 
is an interesting question. Carbon dioxide, the most prevalent 
greenhouse gas, is a threat no matter where it is emitted because its 
heat-trapping potential is the same regardless of its point of origin. 
This is why it is so important that if it is to be used, the 
CO<INF>2</INF> must be safely captured and stored. This is as true in 
the U.S. as it is in China.


    Question. From a broader economic security perspective, what are 
your thoughts on the criticism that a fossil fuel-free energy policy in 
the U.S. makes us anti-competitive on the global market, when China and 
India are projected to increase their reliance on low-cost coal power 
generation?

    Answer. I believe that the world's 21st century economy will be 
dominated by the nations that will transition as quickly as possible to 
renewable sources of energy. The nation that develops and 
commercializes these technologies first will have a lasting advantage 
in the new economy.


    Question. Do you think there is a role for carbon capture and 
storage technologies in allowing the U.S. to continue to use vast 
domestic coal resources while addressing climate change?

    Answer. I do, although the coal industry would have us believe that 
large-scale applications for CCS are just around the corner. However, 
top experts have indicated that it could be 15-20 years before it is in 
widespread use, and that difficult questions must still be answered 
before that can happen. This information tells me that CCS is not a 
silver bullet and that we must take steps now to ensure that a range of 
renewable energy solutions are in place.


    Question. Have you consulted Parties to the UN Framework Convention 
on Climate Change on your recommendations for a post-Kyoto accord?

    Answer. I have and I would be happy to brief you about my 
conversations at your convenience.

                               __________

       responses to questions submitted to former vice president 
                       al gore by senator corker


    Question. Mr. Vice President, during Wednesday's hearing we agreed 
that if a carbon tax were implemented, 100% of the revenues should be 
returned to the American people. When we talked about how to spend the 
revenue under a cap-and-trade system, you said that some of the revenue 
could go for adaptation and some for research and technology. Would you 
support 100% of cap-and-trade revenue being returned to consumers? If 
not, what percentage should be returned and what percentage would you 
dedicate each for adaptation and for R&D?

    Answer. The House of Representatives has completed its work on a 
comprehensive piece of climate legislation that includes energy 
efficiency measures, a renewable energy standard, and cap-and-trade 
provisions. Some of the permits will be auctioned. With regards to how 
such proceeds might be allocated in legislation, I believe that we must 
protect against a regressive program that disproportionately affects 
the poor. We also must evaluate the bill's impact on the budget and on 
household energy prices. To date, I believe that the leadership of the 
House of Representatives has tried to take these principles into 
account.

                               __________

       RESPONSES TO QUESTIONS SUBMITTED TO FORMER VICE PRESIDENT 
                       AL GORE BY SENATOR DEMINT


    Question. Because the availability of renewable energy sources--
especially wind, solar, and geothermal energy are heavily dependent on 
certain regions of the United States, a major concern is the ability to 
transmit energy from parts of the country with high resource potential 
to parts of the country where the demand actually exists.
    Do you support federal preemption of state and local laws when 
determining the rights of way necessary to build the transmission grid?

    Answer. I support the development of a more integrated, unified, 
national smart grid that will allow us to better transmit electricity 
across the country with low losses. Right now, we have three separate 
systems that cannot communicate or interconnect effectively with one 
another. In developing a national smart grid, the Congress should 
consider the best ways to resolve conflicts between national and state 
authorities in granting rights of way for new transmission lines to 
relieve congestion and enhance our national security from potentially 
crippling blackouts.


    Question. You have advocated renewable energies as a solution to 
reducing dependence on fossil fuels and greenhouse gas emission.
    First, is it not true that because of the unpredictable nature of 
renewable energy--renewable utility companies still rely on fossil 
fuels to provide backup energy generation?

    Answer. During the transition, we will rely on a mix of renewable 
and fossil fuels. However, geothermal power is baseload energy and wind 
and solar complement one another in that when one is not available the 
other generally is. New energy storage with concentrating solar thermal 
will also help address the backup issue.


    Question. Currently in the U.S. energy portfolio, coal is among the 
cheapest forms of energy followed by nuclear and then the more 
expensive natural gas. If the U.S. were to adopt all of your proposed 
subsidies for renewable energy, won't the utilities first replace their 
most expensive energy source--natural gas--and continue to rely on 
cheaper forms of energy such as coal?

    Answer. Coal remains inexpensive in part because its true costs are 
not calculated--for example--the clean up costs for the massive spill 
of coal ash in my home state of Tennessee is not calculated in the 
statistics you are citing. Even with those costs excluded, wind power 
is cost competitive with coal.


    Question. Do you believe at a time of deep recession and job losses 
we should be increasing taxpayers' energy bills and the cost of doing 
business or should we keep the cost of electricity lower so companies 
can afford to keep or hire more workers?

    Answer. Fortunately, this is a false choice. A well-constructed, 
comprehensive climate and energy bill will include provisions for 
energy efficiency, renewable energy, and cap and trade that I believe 
will not have the impacts that you describe.


    Question. According to the Nashville Electric Service, your home in 
Nashville Tennessee consumes more energy in a single month than the 
average American household uses in an entire year. In your documentary, 
you call on Americans to conserve energy by reducing electricity 
consumption at home.

    Answer. Those figures are inaccurate and/or outdated. I live in a 
Gold LEED certified home that uses geothermal power, solar power and 
Energy Star appliances. I also purchase electricity from the green 
power program offered by my electricity supplier--which comes from non-
CO<INF>2</INF> producing sources.


    Question. You have asked Americans to sacrifice; yet you have been 
unwilling to make sacrifices yourself. In addition, just using your 
travel schedule last year your carbon footprint was more than 1500 tons 
of CO<INF>2</INF>--roughly the equivalent of driving a Hummer H3 9 
million miles.

    Answer. Those figures are inaccurate.


    Question. How much did you spend in carbon offsets last year? Do 
you still purchase carbon offsets through Generation Investment 
Management? Are you still Chairman of the Generation Investment 
Management?

    Answer. I am the chairman of Generation Investment Management. My 
family and I offset our emissions through my personal office. 
Generation Investment Management operates as a carbon neutral company 
and manages its own programs. We do not release the cost of 
administering these programs.


    Question. In your testimony you stated that ``as long as we 
continue to send hundreds of billions of dollars for foreign oil--year 
after year--to the most dangerous and unstable regions of the world, 
our national security will continue to be at risk.''
    While American families curbed their consumption of foreign oil 
last year, your personal air travel sent over $500,000 to those 
countries. If the United States were to build more nuclear plants and, 
through the Fischer-Tropsch process, use our domestic coal resources we 
could end this dependence you believe is so dangerous. Do you support 
this strategy?

    Answer. This is simply inaccurate. I drive a hybrid vehicle and 
actively conserve energy in a variety of ways, see above. Additionally, 
I fly commercially the vast majority of time.
    With regards to nuclear power, as I testified, I am not reflexively 
opposed to nuclear power. I believe that my testimony fully explained 
my views.


    Question. Thirty years ago, U.S. politicians enacted policies that 
ended the growth of the American nuclear energy industry. As a result, 
we haven't seen a new construction license issued since the late 1970's 
and energy companies switched from pursuing clean non-polluting nuclear 
energy and were forced to rely more and more on coal. Now, politicians 
condemn the energy industry for pursuing a path they were forced to 
follow.
    Europe on the other hand has embraced nuclear energy. Today, 
Europeans have almost twice as many nuclear reactors than the United 
States and have used nuclear energy to help reduce their dependence on 
coal by more than 30 percent, while the U.S. increased our use of coal 
by more than 60 percent.
    While the United States abandoned already built facilities to 
recycle nuclear waste, the Europeans took American technology, improved 
it, and control the entire nuclear fuel cycle. Now, European countries 
are proposing even more nuclear reactors in order to meet their 
pollution reduction commitments under their Kyoto agreements.
    Do you support increasing the use of nuclear energy as a way to 
create base load energy generation in the United States?

    Answer. I addressed this in my testimony. Again, I believe that 
nuclear power is not likely to be a large part of the solution here in 
the U.S. or around the world, but I do not oppose efforts to explore 
its use.


    Question. Next to labor costs, energy is the biggest cost of doing 
business. In a global market place the United States currently enjoys a 
considerable competitive advantage when it comes to the cost and supply 
of energy vis-a-vis other nations.
    A carbon tax would raise American energy prices on taxpayers and 
businesses to a level more commensurate with European energy prices and 
undermine one of America's strongest advantages. Do you support 
policies that would raise the cost of doing business in America--
especially at a time when businesses are laying workers off?

    Answer. I have supported a carbon tax that is completely rebated to 
the American people--so there would be no increase in the costs to 
Americans, so I respectfully disagree with the premise of your 
question. I also support the ACES Act that just passed the U.S. House 
of Representatives.


    Question. You said on July 17, 2008: ``The leading experts predict 
that we have less than 10 years to make dramatic changes in our global 
warming pollution lest we lose our ability to ever recover from this 
environmental crisis.''
    You have been warning of a 10 year tipping point for several years 
now, but are you aware that the United Nations started a 10-year 
tipping point countdown--in 1989? \1\
---------------------------------------------------------------------------
    \1\ According to the July 5, 1989, article in the Miami Herald, the 
then-director of the New York office of the United Nations 
Environmental Program (UNEP), Noel Brown, warned of a ``10-year window 
of opportunity to solve'' global warming. According tot he 1989 
article, ``A senior U.N. environmental official says entire nations 
could be wiped off the face of the Earth by rising sea levels if the 
global warming trend is not reversed by the year 2000. Coastal flooding 
and crop failures would create an exodus of `eco-refugees,' threatening 
political chaos.''

---------------------------------------------------------------------------
    Answer. I am citing research from Dr. James Hansen of NASA-GISS.


    Question. Given that the first 10-year tipping point warning was 
issued 20 years ago, should the public really be concerned about so-
called ``tipping points?''

    Answer. Yes, I do, and I would particularly refer them to some new 
research that has updated the latest findings from the IPCC--
particularly related to the state of the arctic ice cap, the Greenland 
ice sheet, and new studies related to the impacts of climate change on 
precipitation


    Question. If we should be worried about ``tipping points,'' what 
should we use as the starting date?

    Answer. I believe that you should consult Dr. Hansen.


    Question. In the past month or two there have been several new 
research findings that suggest the recent speed-up of many of 
Greenland's outlet glaciers is temporary and is now slowing. In making 
your projections of rapid sea level rise in the coming century, you 
rely on a large contribution from Greenland. Yet these new papers 
greatly play down that possibility. In this week's Science magazine, 
science writer Richard Kerr sums up the current state-of-knowledge 
about Greenland in an article titled ``Galloping Glaciers of Greenland 
Have Reined Themselves In'':


          Things were looking bad around southeast Greenland a few 
        years ago. There, the streams of ice flowing from the great ice 
        sheet into the sea had begun speeding up in the late 1990s. 
        Then, two of the biggest Greenland outlet glaciers really took 
        off, and losses from the ice to the sea eventually doubled. 
        Some climatologists speculated that global warming might have 
        pushed Greenland past a tipping point into a scary new regime 
        of wildly heightened ice loss and an ever-faster rise in sea 
        level.


    The article continues:


          So much for Greenland ice's Armageddon. ``It has come to an 
        end,'' glaciologist Tavi Murray of Swansea University in the 
        United Kingdom said . . . ``There seems to have been a 
        synchronous switch-off'' of the speed-up. Nearly everywhere 
        around southeast Greenland, outlet glacier flows have returned 
        to the levels of 2000 . . . no one should be extrapolating the 
        ice's recent wild behavior into the future.


    Have the opinions of scientists like Tavi Murray and colleagues--
scientists directly working on gaining a better understanding into the 
processes of glacial behavior in Greenland--tempered your beliefs about 
the amount of sea level rise that we should expect this century? If 
not, how is it that you have come to arrive at different conclusions 
that those from the scientists directly engaged in studying this 
specific issue? \2\
---------------------------------------------------------------------------
    \2\ References:
    -- Joughin, I., et al., 2008. Seasonal speedup along the western 
flank of the Greenland Ice Sheet. Science, 320, 781-783.
    -- Kerr, R. A., 2009. Galloping glaciers of Greenland have reined 
themselves in. Science, 323, 458.
    -- Murray, T., et al., 2008. Has dynamic thinning switched off in 
southeast Greenland? Presentation to the Fall 2008 meeting of the 
American Geophysical Union, C32B-08.
    -- Nick, F. M., et al., 2009. Large-scale changes in Greenland 
outlet glacier dynamics triggered at the terminus. Nature Geoscience, 
DOI:10.1038, published on-line January 11, 2009.
    -- van de Wal, R. S. W., et al., 2008. Large and rapid melt-induced 
velocity changes in the ablation zone of the Greenland ice sheet. 
Science, 321, 111-113.

    Answer. I would refer you to two major papers: ``The risks of 
climate change: A synthesis of new scientific knowledge since the 
finalization of the IPCC Fourth Assessment Report (AR4),'' 15 December 
2008; and ``Assessing Dangerous Climate Change Through an Update of the 
IPCC `Reasons for Concern' Proceedings of the National Academy of 
Sciences,'' February 23, 2009.
    I think you'll find them both very helpful on this and other 
questions.


    Question. A U.S. Senate Minority Report released in December 
details over 650 international scientists who are dissenting from man-
made global warming fears\3\ promoted by the UN and yourself. Many of 
the scientists profiled are former UN IPCC scientists and former 
believers in man-made climate change that have reversed their views in 
recent years. (i.e. French scientist Claude Allegre, Israeli 
astrophysicist Nir Shaviv, UK scientist David Bellamy)
---------------------------------------------------------------------------
    \3\  http://epw.senate.gov/public/
index.cfm?FuseAction=Files.View&FileStore--id=83947f5d-d84a-4a84-ad5d-
6e2d71db52d9
---------------------------------------------------------------------------
    Given the outpouring of scientists declaring themselves skeptical 
of man-made warming fears, do you expect the American public to believe 
that there is ``no debate'' on this matter?

    Answer. I disagree with your characterization of the U.S. Senate 
Minority report. All of the top scientific research agencies in the 
world, including the National Academy of Sciences, acknowledge that 
global warming is real and it is caused by human activities.


    Question. The prestigious International Geological Congress, dubbed 
the geologists' equivalent of the Olympic Games, was held in Norway in 
August 2008 and prominently featured the voices of scientists skeptical 
of man-made global warming fears. Reports from the conference found 
that skeptical scientists overwhelmed the meeting, with about two 
thirds of presenters and question-askers hostile to, even dismissive 
of, the UN IPCC. In addition, a canvass of more than 51,000 Canadian 
scientists revealed 68 percent disagree that global warming science is 
``settled.'' \4\
---------------------------------------------------------------------------
    \4\  http://epw.senate.gov/public/
index.cfm?FuseAction=Minority.Blogs&ContentRecord--id=865 DBE39-802A-
23AD-4949-EE9098538277
---------------------------------------------------------------------------
    Isn't the fact that prominent scientists at this meeting were 
publicly voicing dissent evidence that the claim that the ``debate is 
over'' rhetoric may not be an accurate description?

    Answer. The Intergovernmental Panel on Climate Change and the 
National Academy of Sciences in over 20 countries have long ago 
determined that global warming is real and caused by humans. There is 
no debate on these points. Scientists are certainly working to 
understand complex issues such as how global warming effects certain 
regional and local phenomena, but the basics are settled.


    Question. Further, a November 25, 2008, article in Politico noted 
that a ``growing accumulation'' of science is challenging warming 
fears, and added that the ``science behind global warming may still be 
too shaky to warrant cap-and-trade legislation.'' In addition, Russian 
scientists ``rejected the very idea that carbon dioxide may be 
responsible for global warming,'' \5\ an American Physical Society 
editor conceded that a ``considerable presence'' of scientific skeptics 
exists,\6\ an International team of scientists countered the UN IPCC, 
declaring: ``Nature, Not Human Activity, Rules the Climate,'' \7\ India 
issued a report challenging global warming fears,\8\ and International 
Scientists demanded the UN IPCC ``be called to account and cease its 
deceptive practices.'' \9\
---------------------------------------------------------------------------
    \5\ http://www.hindu.com/2008/07/10/stories/2008071055521000.htm
    \6\ http://blogs.news.com.au/heraldsun/andrewbolt/index.php/
heraldsun/comments/no_consensus_and_no_warming_either
    \7\ http://heartland.temp.siteexecutive.com/pdf/22835.pdf
    \8\ http://epw.senate.gov/public/
index.cfm?FuseAction=PressRoom.Facts&ContentRecord--id=09DF614E-802A-
23AD-46C9-8A90FCB5569A
    \9\ http://www.tech-know.eu/uploads/Letter_UN_Sec_Gen_Ban_Ki-
moon.pdf
---------------------------------------------------------------------------
    Do you believe the above developments are the key reasons that the 
U.S. public has grown so skeptical of man-made climate doom 
predictions? \10\ \11\ And if not, despite all the efforts including 
your own film, what do you believe accounts for why the American people 
do not rate this as an issue of high importance to them?
---------------------------------------------------------------------------
    \10\ http://people-press.org/report/485/economy-top-policy-priority
    \11\ http://network.nationalpost.com/np/blogs/fpcomment/archive/
2009/01/20/lawrence-solomon-obama-s-america-a-denier-nation.aspx

    Answer. I do not believe that the U.S. public is skeptical and, in 
fact, I believe that the emerging consensus for action on Capitol Hill 
is a reflection that the country is prepared to grapple with this 
---------------------------------------------------------------------------
serious problem.


    Question. While you testified that the 10 hottest years on record 
have occurred within the last couple decades. NASA's James Hansen has 
noted that ``the U.S. has warmed during the past century, but the 
warming hardly exceeds year-to-year variability. Indeed, in the U.S. 
the warmest decade was the 1930s and the warmest year was 1934.''
    If global warming is an imminent crisis, why do NASA satellite 
instruments show global temperatures have been falling for most of the 
past decade?

    Answer. NASA instruments show a solid warming trend for the past 30 
years. I would urge you to receive a briefing from scientists from 
either NASA GISS or the National Oceanographic and Atmospheric 
Administration (NOAA). I feel confident that they will be able to 
ensure that you have absolute clarity about the data.


    Question. Why are we to believe we are in some sort of global 
warming crisis when scientists report global temperatures for most of 
the past 10,000 years have been significantly higher than current 
temperatures?

    Answer. The global warming pollution we emit, 70 million tons a 
day, is threatening to cause carbon dioxide concentrations to rise to 
levels higher than at any time since humans have existed on the earth. 
The resulting temperature changes are projected to cause huge changes 
in the earth's climate that will alter the relative climatic stability 
that has enabled us to develop civilization as we know it.


    Question. If you are confident in your global warming information 
and predictions, are you willing to publicly debate this issue with 
people from the scientific community that are just as passionate as 
you? Perhaps a few of the scientists who will be presenting material at 
the March 2009 International Conference on Climate Change in New York 
City?

    Answer. It is time for us to acknowledge the reality of the climate 
crisis and shift the debate to how we can solve it.

                                 <all>

      

</pre></body></html>
